  U.S. Department of Education

Office of Inspector General




Semiannual Report to Congress: No. 55
   April 1, 2007 - September 30, 2007
                                                                    CONTENTS
MESSAGE TO CONGRESS

OVERVIEW .............................................................................................................................................. 1

STUDENT FINANCIAL ASSISTANCE PROGRAMS ....................................................................... 3
  FSA Operations ...................................................................................................................................... 3
     Monitoring of Guaranty Agency Compliance with the Establishment of the Federal Fund and
        the Operating Fund ........................................................................................................................ 3
     Monitoring of FSA Contracts ............................................................................................................ 4
     Oversight of the FAFSA Verification Process................................................................................... 4
  Title IV Program Participants ................................................................................................................. 5
     Puerto Rico: Educational Technical College .................................................................................... 5
     Texas: Career Point Institute............................................................................................................. 5
  Investigations .......................................................................................................................................... 6
     Fraud by School Officials .................................................................................................................. 6
     Fraud by College Aid Service Providers ........................................................................................... 7
     Fraud by Individuals .......................................................................................................................... 7

STATE AND LOCAL PROGRAMS ....................................................................................................... 8
  Elementary and Secondary Education Act/NoChild Left Behind Act .................................................... 8
     Congressional Testimony - Reading First ........................................................................................ 8
     ESEA Secretarial Waivers ................................................................................................................ 9
     Unsafe School Choice Option............................................................................................................ 9
     Title I Fiscal Requirements - Comparability of Services ................................................................ 10
  Grantee Accountability ......................................................................................................................... 11
     New York: Hempstead Union Free School District ....................................................................... 11
     Ohio: Columbus City School District ............................................................................................. 11
     Puerto Rico: Charter Schools.......................................................................................................... 11
  Investigations ........................................................................................................................................ 12
     Puerto Rico ...................................................................................................................................... 12
     Texas ................................................................................................................................................ 13
     Washington, DC............................................................................................................................... 13

INFORMATIONS SECURITY AND MANAGEMENT AND DEPARTMENT
  INTERNAL OPERATIONS .............................................................................................................. 13
  Information Security and Management ............................................................................................... 14
     FISMA Requirement ....................................................................................................................... 14
     Financial Management Support System Re-implementation ......................................................... 15
     Termination of EDNet Access for Separated Employees................................................................ 15
  Internal Operations ............................................................................................................................... 16
     Congressional Earmarks .................................................................................................................. 16
     Management of the EDNet Contract................................................................................................ 17
     Discretionary Grant Awards Process in the Office of Postsecondary Education ............................ 17
     Management Procedures under the Randolph-Sheppard Act and Javits-Wagner-O’Day Act......... 18
HURRICANE-RELATED EFFORTS .................................................................................................. 18
  Alabama ............................................................................................................................................... 19
     Temporary Emergency Impact Aid Funding ................................................................................... 19
     Restart Funding................................................................................................................................ 19
  Louisiana............................................................................................................................................... 20
     Temporary Emergency Impact Aid Funding ................................................................................... 20
     Higher Education Relief Funding .................................................................................................... 20
  Mississippi ............................................................................................................................................ 21
     Temporary Emergency Impact Aid Funding ................................................................................... 21
     Restart Funding................................................................................................................................ 21
  Texas ..................................................................................................................................................... 22
     Temporary Emergency Impact Aid Funding ................................................................................... 22
  Investigation.......................................................................................................................................... 23
     Indiana ............................................................................................................................................. 23

OTHER NOTEWORTHY ACTIVITIES ............................................................................................ 23
  Nonfederal Audits ................................................................................................................................ 23
  President’s Council on Integrity Efficiency ......................................................................................... 23
     Results of the National Single Audit Sampling Project .................................................................. 23
Reporting Requirements of the Inspector General Act, as amended ................................................ 25
Table 1: Recommendations Described in Previous Semiannual Reports on
           Which Corrective Action Has Not Been Completed ............................................................ 26
Table 2: OIG Audit Services Reports on Department Programs and Activities
           (April 1, 2007, to September 30, 2007) ................................................................................ 27
Table 3: Other OIG Reports on Department Programs and Activities
           (April 1, 2007, to September 30, 2007) ................................................................................ 31
Table 4: OIG Issued Audit Reports with Questioned Costs ................................................................... 32
Table 5: OIG Issued Audit Reports with Recommendations For Better Use of Funds .......................... 33
Table 6: Unresolved Reports Issued Prior to April 1, 2007 .................................................................... 33
Table 7: Statistical Profile - Fiscal Year 2007 ......................................................................................... 40
INSPECTOR GENERAL’S MESSAGE TO CONGRESS
We are pleased to provide this semiannual report on the activities and accomplishments of the Office
of Inspector General (OIG), U.S. Department of Education (Department) from April 1, 2007, through
September 30, 2007, as required by the Inspector General Act of 1978. The audits, inspections,
investigations, and other activities highlighted in this report illustrate our on-going commitment to
promoting accountability, efficiency, and effectiveness in federal education programs and operations.

Over the last six months, OIG issued 45 audit, inspection, and alternative product reports. We
identified nearly $29 million in questioned costs, and over $17 million in unsupported costs. We
closed 66 investigations, with over $26.8 million in fines, restitution, settlements, and recoveries. As
you will read in the pages of this report, our work continues to identify problems with accountability
in the Department's programs and operations we reviewed, specifically its adherence to statutory
requirements, and oversight and monitoring of its program participants and contractors. This lack of
effective organizational accountability can place taxpayer dollars at risk of waste, fraud, and abuse,
and can affect the public's trust in the Department's ability to effectively and fairly carry out its
programs and mission.

The U.S. Congress understands the value of accountability in federal education programs, as
accountability was a driving factor in the Elementary and Secondary Education Act of 1965 (ESEA),
as amended by the No Child Left Behind Act of 2001 (NCLB). Accountability measures were also
included in the 2004 reauthorization of the Individuals with Disabilities Education Act, and most
recently with the U.S. Senate-passed Higher Education Amendments of 2007. In NCLB, for example,
public elementary and secondary schools are held accountable for results. The same must hold true
for the Department's internal operations: the Department must be held accountable for results. Work
conducted by OIG over the last six months shows this to be a challenge for the Department.

As you work to reauthorize the ESEA/NCLB, as well as the Higher Education Act of 1965, as
amended (HEA), I would like to bring to your attention the significant body of work we have
conducted on key provisions of these laws. Since 2002, we have released over 200 ESEA/NCLB- and
HEA-related reports, providing recommendations for the Department to improve its administration of
the programs or that of its grantees. In instances where we identified areas of the law that may need
further clarification or enhancement, we have made suggestions for Congress to consider. Our final
reports can be accessed via our website at www.ed.gov/offices/oig, and we are available to discuss
them with you in more detail.

Finally, while my office has been very productive in this fiscal year, with our limited resources, we
face a significant challenge in conducting all of the work necessary to help ensure the integrity of the
Department's programs and operations. Throughout the year, a number of the audits we planned to
conduct were put on hold, as staff was reassigned to our Congressionally-directed efforts or other
pressing work. We remain, however, committed to working with the Department to ensure that its
operations and programs provide the best service to the American public.

Thank you for your continued support of our efforts. I look forward to working with the 110th
Congress in furthering our goals and achieving our mission.

                                                    John P. Higgins, Jr.
                                                    Inspector General
OVERVIEW
           The Office of Inspector General (OIG), for the period April 1, 2007, through September
           30, 2007, continued its work to promote efficiency, effectiveness, and integrity in the
           programs and operations of the U.S. Department of Education (Department). As discussed
           in this Semiannual Report (SAR), our work identified weaknesses with accountability in
           the programs and operations we reviewed. The lack of effective organizational
           accountability can place taxpayer dollars at risk of waste, fraud, and abuse, and can affect
           the public’s trust in the Department’s ability to effectively and fairly carry out its programs
           and mission.

           Accountability is essential to success, particularly when it comes to education. The U.S.
           Congress understands the value of accountability in federal education programs, as
           accountability was a driving factor in the Elementary and Secondary Education Act of
           1965 (ESEA), as amended by the No Child Left Behind Act of 2001 (NCLB). Accountabil-
           ity measures were also included in the 2004 reauthorization of the Individuals with Dis-
           abilities Education Act (IDEA), and most recently in the U.S. Senate-passed Higher
           Education Amendments of 2007. In the ESEA/NCLB, for example, public elementary and
           secondary schools are held accountable for results. The same must hold true for the
           Department’s internal operations: the Department must be held accountable for results.
           Work conducted by OIG over the last six months shows this to be a challenge for the
           Department. This SAR provides summaries of our work that led to these findings, as well
           as a brief synopsis of the significant recommendations that were presented in each report.

           In the first section of this SAR you will find summaries of reports we released over the last
           six months regarding student financial assistance programs and operations. Due in part to
           recent OIG audits that disclosed internal control weaknesses and potential conflicts of
           interest in its student financial assistance programs and operations, the Department and its
           Federal Student Aid office (FSA) have come under the scrutiny of the U.S. Congress and
           the media. As the office responsible for administering these programs, FSA must conduct
           effective monitoring and oversight of its program participants, and it must demand
           accountability from its staff and contractors to help protect higher education dollars from
           waste, fraud, and abuse. OIG work conducted over the last six months revealed that this is
           a significant challenge for FSA, as it does not have the capacity and resources necessary to
           identify and implement effective oversight and monitoring of its program participants.

           The second section of this report includes summaries of the work we concluded in the area
           of elementary and secondary education programs over the last six months. In recent years
           we have focused more of our resources on reviewing state educational agency (SEA) and
           local educational agency (LEA) compliance with important provisions of the ESEA and
           the IDEA. Work discussed in this section includes a report on how one SEA’s failure to
           adequately monitor LEA compliance with a provision of the ESEA may have led to its dis-
           bursement of more than $16.8 million in Title I funds to ineligible schools, and another
           report that identified $2.3 million in unsupported costs for selected ESEA programs by a
           single LEA. This section also includes summaries of several significant investigative
                                              1
                                                   Semiannual Report To Congress: #55


cases in the area of elementary and secondary education, including fraud by individuals
placed in positions of trust within the elementary and secondary education community,
as well as a $19 million civil fraud settlement with the Puerto Rico Department of Edu-
cation.

In the third section of this report, we highlight the audits and reviews we completed on
the Department’s information security and management efforts and internal operations,
including the results of our annual Federal Information Security Management Act review
— areas where accountability is vital in protecting the Department’s valuable assets and
confidential information. Work concluded over the last six months shows continued
inadequacies with accountability by the Department in its information security and man-
agement and its monitoring and oversight of significant contracts. Because so many of
the Department’s mission-critical activities are implemented through contracts, it is vital
that the Department hold its contractors accountable for delivering the goods and ser-
vices they were paid to produce.

In the fourth section of our report, we provide summaries of our recent work regarding
federal funds to support education-related hurricane relief efforts. As such a large
amount of funding was distributed in a short amount of time, establishing effective pro-
cedures, processes, and accountability measures early in the implementation process was
vital. During this reporting period, we released seven hurricane-related reports, focused
on whether specific entities that received hurricane-related dollars from the Department
established proper procedures and processes for disbursing the funds, if the entities
received the correct amount of funding, and if they spent the funds in accordance with
applicable laws and regulations. While, overall, we found that the SEAs and LEAs
established procedures and processes for distributing the funds, we identified consistent
errors in data reliability, specifically with counts of displaced students, which provide the
basis for calculating the amount of Temporary Emergency Impact Aid (EIA) funding the
SEAs allotted to LEAs. As a result, the LEAs we reviewed may have received nearly
$25 million in EIA funds in excess of their entitlement.

We constantly strive to improve our operations through our work with the Inspector Gen-
eral community. In the fifth section of this report, we highlight our most recent accom-
plishment: the release of the National Single Audit Sampling Project, the OIG-led multi-
year, multi-agency report to determine the quality of single audits and recommend
changes in single audit requirements, standards, and procedures to improve the quality of
single audits.

In the sixth and final section of this report we include a compilation of tables of the
audits, inspections and investigations we concluded during this reporting period, and our
overall statistics for Fiscal Year (FY) 2007, as required by the Inspector General Act of
1978, as amended. For more information on the work or activities discussed in this
report, please contact the OIG Congressional Liaison at (202) 245-7023, e-mail us
directly at oigpublicaffairs@ed.gov or visit our website at www.ed.gov/offices/oig.

                                 2
                                 2
                                                                      Semiannual Report To Congress: #55


STUDENT FINANCIAL ASSISTANCE PROGRAMS
                    Due in part to recent OIG reports that disclosed internal control weaknesses and potential
                    conflicts of interest in its student financial assistance programs and operations, the
                    Department and FSA have come under the scrutiny of the U.S. Congress and the media.
                    The federal student financial assistance programs involve over 6,000 postsecondary
                    institutions, more than 3,000 lenders, 35 guaranty agencies, and many third party servic-
                    ers. During FY 2007, FSA provided $77 billion in awards and managed an outstanding
                    loan portfolio of over $400 billion. As the office responsible for administering these pro-
                    grams, FSA must conduct effective monitoring and oversight and demand accountability
                    from its staff, program participants, and contractors to help protect higher education dol-
                    lars from waste, fraud, and abuse. OIG work conducted over the last six months
                    revealed that this is a significant challenge for FSA, as FSA does not have the capacity
                    and resources necessary to identify and implement effective oversight and monitoring of
                    its program participants. In addition, OIG investigative staff continues to aggressively
                    identify cases of theft of student financial assistance funds by those in positions of trust
                    in schools, as well as by students themselves. Summaries of our reports and more signif-
                    icant investigative cases are highlighted below.


                    FSA Operations
MONITORING OF       The Higher Education Act of 1965, as amended by the Higher Education Amendments of
GUARANTY AGENCY     1998 (HEA), required each guaranty agency to establish a Federal Fund and an Operat-
COMPLIANCE WITH     ing Fund. All funds, securities, and other liquid assets of the guaranty agency’s Federal
THE ESTABLISHMENT   Family Education Loan (FFEL) program reserve fund were to be transferred to the Fed-
OF THE FEDERAL
                    eral Fund, which is the property of the federal government. FSA’s Financial Partners
FUND AND THE
                    Services — the division within FSA that was responsible for the oversight of the FFEL
OPERATING FUND
                    program and its participants — provided technical assistance to the guaranty agencies in
                    meeting this HEA requirement, as well as conducted program reviews to ensure compli-
                    ance with the HEA.

                    In 2003, OIG issued a report summarizing our audits of nine guaranty agencies and iden-
                    tified problems with the establishment of the Federal Fund at each agency. Our work
                    showed that the beginning balances of the Federal Fund at the nine guaranty agencies
                    were understated by over $17.8 million. Based on our findings, we made recommenda-
                    tions to FSA aimed at improving its monitoring and oversight of the remaining 27 guar-
                    anty agencies not audited by the OIG, including that it conduct program reviews at those
                    27 guaranty agencies to ensure compliance with this provision of the HEA. In response
                    to our report, FSA agreed to conduct program reviews at these guaranty agencies not
                    previously audited by OIG.

                    In 2007, we initiated an inspection to determine the progress FSA has made in ensuring
                    compliance by the guaranty agencies in establishing the Funds. We found that FSA had
                    not implemented the agreed-upon corrective actions from 2003, nor had it made any sig-
                                                    3
                                                    3
                                                                     Semiannual Report To Congress: #55


                   nificant improvements in oversight. The actions taken by FSA in response to the 2003
                   report would not ultimately resolve the matters brought to the attention of FSA manage-
                   ment and did not appear to take into account the deficiencies identified in the 2003 OIG
                   report. As a result, FSA cannot provide assurance that guaranty agencies have estab-
                   lished Federal Funds and Operating Funds in compliance with the HEA. Due to FSA’s
                   failure to take effective action, it cannot identify or quantify erroneous payments or lost
                   revenue to the Federal Fund for at least the last four years. Based on our findings, we
                   made a number of recommendations, similar to those we made in our 2003 report,
                   including that FSA perform onsite program reviews to examine supporting records for
                   the establishment of the Federal and Operating Funds at the 27 guaranty agencies not
                   audited by OIG in 2003.

                   Our 2007 inspection also reinforces the findings of our 2006 report on FSA’s
                   Financial Partner’s Services, where we found that FSA had a weak control environment
                   for monitoring and oversight and emphasized partnership over compliance with its pro-
                   gram participants. Further, during the course of our work, Department officials
                   acknowledged that FSA did not have sufficient staff with the qualifications and knowl-
                   edge needed to monitor guaranty agencies, lenders, and other participants. This is a
                   weakness that must be addressed. With the billions of dollars supporting federal student
                   financial assistance programs, FSA must take effective steps to improve monitoring and
                   oversight and demand accountability from its staff and program participants. Click here
                   for a copy of the report.

MONITORING OF      Procurement is big business in the federal government, and the Department and FSA are
FSA CONTRACTS      no exceptions. For FY 2005, payments under Department contracts totaled more than
                   $1.4 billion; payments under FSA contracts totaled more than $843 million. During this
                   reporting period, we concluded an audit to determine whether FSA’s contract monitoring
                   process ensured that its contractors adhered to the requirements of the contract, and that
                   it received the products and services intended. We selected for review 10 contracts for
                   which the highest amount of payments were made during FY 2005, as we considered
                   those to have required the most active contract monitoring. For the contracts reviewed,
                   we found that FSA’s monitoring process did not always ensure that contractors adhered
                   to contract requirements or that FSA received the products and services intended. In
                   addition, FSA staff did not always follow established regulations, policies or procedures
                   for nine out of the 10 contracts we reviewed. This occurred because FSA staff was not
                   always familiar with applicable policies and procedures and due to resource limitations.
                   As a result, FSA lacks assurance that payments were proper and its interests were pro-
                   tected. We made a number of recommendations to help improve FSA’s contract monitor-
                   ing processes. FSA concurred with our recommendations. Click here for a copy of the
                   report.

OVERSIGHT OF THE   Students apply for federal student financial assistance by completing a Free Application
FAFSA              for Federal Student Aid (FAFSA), which is processed by the Central Processing System
VERIFICATION       (CPS). The CPS uses the application information and the statutory needs analysis for-
PROCESS            mula to calculate each applicant’s expected family contribution (EFC). If the EFC is less

                                                   4
                                                   4
                                                                      Semiannual Report To Congress: #55


                    than the student’s cost of attendance, a student has a financial need and may be eligible
                    to receive student financial assistance. Verification is one of the processes that the
                    Department relies on to ensure that students and parents report accurate information on
                    the FAFSA. In 2002, we conducted an audit of the Department’s verification processes
                    and determined that while it generally had adequate controls to select applications for
                    verification, it was not using data collected on the results of school verifications to mon-
                    itor the effectiveness of the process or the extent to which schools complied with verifi-
                    cation requirements. During this reporting period, we conducted a follow-up audit that
                    found that the Department continues to have adequate procedures in place for evaluating
                    the effectiveness of the verification process; however, these procedures could be
                    improved, as they provide only a limited level of assurance that schools perform the
                    required verification. Based on our findings, we made a number of recommendations,
                    including that FSA conduct program reviews, provide technical assistance, or take other
                    actions to ensure that schools have completed verifications and have accurately reported
                    the results to the Department. FSA concurred with our recommendations. Click here for
                    a copy of the report.


                    Title IV Program Participants
PUERTO RICO:        We conducted an audit at Educational Technical College (EDUTEC) to determine
EDUCATIONAL         whether the school complied with the HEA and regulations governing institutional eligi-
TECHNICAL COLLEGE   bility, program eligibility, and return of Title IV program funds. Our review covered the
                    period from July 1, 2005, through June 30, 2006, during which time EDUTEC received
                    over $637,300 in Pell Grant funds for 296 students who withdrew from the school. We
                    found that EDUTEC met federal requirements governing institutional, program, and stu-
                    dent eligibility, and that it met requirements for Pell award calculations and disburse-
                    ments; however, EDUTEC did not consistently comply with federal requirements
                    governing the return of Pell Grant funds because it incorrectly determined some stu-
                    dents’ withdrawal dates. Projecting the results from our random sample to the overall
                    universe of 296 students, we estimated that EDUTEC failed to return $83,000 to the
                    Department. We made a number of recommendations, including that FSA require
                    EDUTEC to review its records for all students who withdrew from the school during the
                    2003-2004, 2004-2005, and 2005-2006 award years, recalculate the amount of Title IV
                    programs funds that the students earned, and return the unearned amounts to the Depart-
                    ment. EDUTEC concurred with our finding and recommendations, but disagreed with
                    the number of students we identified as exceptions in our sample. Click here for a copy
                    of the report.

TEXAS: CAREER       Career Point Institute (Career Point) is a proprietary school located in San Antonio,
POINT INSTITUTE     Texas. In September, we concluded an audit that sought to determine whether Career
                    Point administered the Title IV programs in accordance with selected requirements of the
                    HEA, including the 90/10 Rule, student eligibility, return of Title IV funds, and Title IV
                    disbursements. The 90/10 Rule requires proprietary schools to demonstrate that at least
                    10 percent of their revenue is derived from sources other than Title IV of the HEA. The

                                                    5
                                                    5
                                                                      Semiannual Report To Congress: #55


                  time period of our review was the 2005-2006-award year, for which Career Point
                  received over $12.5 million in Title IV funds for about 2,100 students. We found that
                  Career Point generally complied with requirements for each provision, except with insti-
                  tutional eligibility and student eligibility: it failed to include Title IV funds received from
                  PLUS loans and disbursed aid to two ineligible students. We recommended that FSA
                  instruct Career Point to ensure that its 90/10 calculations include all Title IV funds, and
                  that it return the amounts paid to ineligible students. Career Point concurred with all of
                  our recommendations. Click here for a copy of the report.


                  Investigations
                  Identifying and investigating fraud and abuse in the student financial assistance pro-
                  grams has always been a top OIG priority. The following are summaries of some of our
                  more significant cases of student financial assistance fraud conducted over the last six
                  months.

FRAUD BY SCHOOL   California: California Business Institute
OFFICIALS         An OIG investigation revealed that officials at three schools, the California Business
                  Institute (CBI), the United Education Computer College (UECC), and the Mesa Institute
                  (Mesa), allegedly entered into an agreement whereby CBI, a school eligible to partici-
                  pate in Title IV programs, allowed student financial assistance applications from UECC
                  and Mesa, two schools ineligible to participate in Title IV programs, to be processed
                  through CBI. As a result, UECC collected over $2.1 million for ineligible students,
                  while Mesa collected over $700,000 for ineligible students. During this reporting
                  period, a former consultant to all three schools was sentenced to five months in prison
                  and was ordered to pay approximately $2.9 million in restitution for her role in the
                  scheme. Three other individuals -- the former owner of CBI, the former owner of
                  UECC, and the former financial aid director at CBI and UECC -- pled guilty to charges
                  for their participation in the scheme.

                  Florida: Summit Institute
                  A former owner and president of the Summit Institute, located in West Palm Beach, Flor-
                  ida, was sentenced to 15 months in prison, followed by three years of supervised release,
                  and was ordered to pay over $393,500 in restitution for student financial assistance
                  fraud. Our investigation, conducted jointly with the Internal Revenue Service Criminal
                  Investigation Division (IRS-CID), found that the former owner failed to return Title IV
                  credit balances and refunds to former Summit Institute students, the Department, and
                  lenders.

                  Idaho: Continental College
                  The former owner and operator of Continental College, located in Boise, Idaho, was sen-
                  tenced to five years of probation for failing to report as income to the IRS-CID over
                  $176,000 in school funds that he converted for his personal use. Our investigation found
                  that the former owner deposited school funds into his personal bank accounts and used
                  them to pay his mortgage, car payments, and personal credit card bills.


                                                   6
                                                   6
                                                                      Semiannual Report To Congress: #55

                   Michigan: Metro Tech
                   Five officials of the Michigan-based Metro Technical Institute (MTI)-- the former owner,
                   executive director, education director, admissions director, and registrar-- were sen-
                   tenced for their roles in a student financial assistance fraud scheme. Our investigation
                   revealed that MTI owners directed school employees to falsify eligibility, attendance,
                   and grade records to illegally obtain student financial assistance funds and to obstruct a
                   scheduled Department program review. All of the officials involved were ordered to pay
                   over $557,000 in restitution. Sentences ranged from 12 months and one day in prison for
                   the former owner, to community service and/or probation for the other officials. A sec-
                   ond MTI owner fled the country and remains a fugitive.

                   Missouri: Vatterott College-St. Ann
                   A former admissions representative at Vatterott College-St. Ann, Missouri campus (Vat-
                   terott-MO), was sentenced to 124 months in federal prison, and three years of supervised
                   release, and was ordered to pay over $653,000 in restitution for aggravated identity (ID)
                   theft and possession of a false document-making instrument. Our joint investigation
                   with the U.S. Secret Service and Social Security Administration OIG (SSA-OIG) found
                   that the individual obtained employment under a false identity to avoid detection of his
                   extensive criminal history. While working at Vatterott-MO, the former employee manu-
                   factured and sold false General Education Development certificates to individuals who
                   used the documents to fraudulently obtain Title IV funds at Vatterott-MO and other
                   schools in the St. Louis, Missouri area.

                   New Jersey/Pennsylvania: CSC Institute
                   A co-owner of the CSC Institute, a school with campuses in New Jersey and Pennsylva-
                   nia, was sentenced to 30 days of incarceration, six months of home confinement, three
                   years of supervised release, and was ordered to pay over $948,000 in restitution, along
                   with a $10,000 fine, for student financial assistance fraud. Our investigation disclosed
                   that the co-owner engaged in a scheme to defraud the Department of student financial
                   assistance funds through the use of falsified attendance records, student tests, and student
                   ledger cards, in order to receive Pell Grants. The individual fraudulently submitted these
                   documents to the Department and CSC Institute’s independent financial/compliance
                   auditor and accreditation agency in order to continue and cover-up the scheme. As a
                   result of the fraud, CSC Institute received approximately $13 million in Pell Grant funds
                   to which it was not entitled, of which the former co-owner and her co-conspirator per-
                   sonally received approximately $3.4 million.

FRAUD BY COLLEGE   Illinois: College of Financial Aid Services
AID SERVICE        The business owner of College Financial Aid Services, a student financial aid consulting
PROVIDERS          company, was sentenced to 24 months in prison, three years of supervised release, and
                   was ordered to pay over $470,000 in restitution for fraud. Our investigation revealed that
                   the owner charged clients between $300 and $800 to prepare false federal and institu-
                   tional aid applications, which were submitted to the Department.

FRAUD BY           New York:
INDIVIDUALS        A man pled guilty before the New York Supreme Court to charges of grand larceny, ID
                   theft, criminal possession of a forged instrument, and offering a forged instrument. Our
                   investigation, conducted jointly with the New York City Police Department, disclosed

                                                   7
                                                   7
                                                                  Semiannual Report To Congress: #55

                that the man used the identity of another individual to obtain federal and private student
                loans in excess of $70,000 to attend the Long Island University.


STATE AND LOCAL PROGRAMS
                Over the last year, there has been much Congressional and media focus on our 2006-
                2007 reviews of the Reading First program — work that identified significant weak-
                nesses and potential conflicts of interest in the Department’s implementation of the
                multi-billion-dollar program. Over the last six months, we continued to discuss our
                Reading First work, and appeared before a Congressional panel to testify to our findings
                and recommendations. With the ESEA/NCLB scheduled for reauthorization this year,
                we have also submitted in-depth reviews of key issues and participated in public reviews
                of draft legislation, providing suggestions as to how to improve the law based on the
                work we have conducted since passage of the NCLB.

                The ESEA/NCLB programs serve more than 14,600 school districts and approximately
                54 million students attending more than 94,000 public schools and 27,000 private
                schools each year. In recent years we have dedicated more of our resources to reviewing
                SEA and LEA compliance with specific provisions of the ESEA/NCLB, as well as
                IDEA. We have conducted this work at the request of the Department and Members of
                Congress, and in response to allegations of waste, fraud, and abuse. As you will see in
                the pages of this report, this work identified a lack of compliance by SEAs and LEAs
                with specific provisions of the ESEA/NCLB and IDEA. The Department must improve
                its oversight and monitoring of its program participants and demand accountability to
                ensure that program dollars are used as the laws require so they can reach the intended
                recipients. Below you will find summaries of the work we concluded in this area over
                the last six months, as well as summaries of some of our significant investigative efforts
                involving misuse or theft of federal education dollars, including by those in a position of
                trust to educate our children.


                Elementary and Secondary Education Act/No Child Left
                Behind Act
CONGRESSIONAL   In April, Inspector General Higgins presented testimony before the U.S. House of Repre-
TESTIMONY –     sentatives Committee on Education and Labor on our series of reports on the Reading
READING FIRST   First program. Reading First was established to provide kindergarten through third grade
                reading programs that are based on scientifically based reading research. Our work
                examined the Department’s grant application process, the Department’s administration
                of selected aspects of the Reading First program, and RMC Research Corporation’s
                administration of the Reading First program contracts. We also conducted three audits to
                assess SEA compliance with the Reading First provisions in Georgia, New York, and
                Wisconsin. These audits sought to determine whether the SEA developed and used crite-
                ria for selecting the scientifically based reading research programs in accordance with

                                                8
                                                8
                                                                      Semiannual Report To Congress: #55


                   applicable laws, regulations, and guidance, and if it approved LEA applications in accor-
                   dance with them.

                   Inspector General Higgins presented a summary of our work, which found that the
                   Department: (1) appeared to inappropriately influence the use of certain programs and
                   assessments; (2) failed to comply with statutory requirements and its own guidance; (3)
                   obscured the requirements of the statute; and (4) created an environment that allowed
                   real and perceived conflicts of interest. He also informed Congress of our recommenda-
                   tions for the Department to address the identified concerns, which the Department
                   accepted. He also suggested that Congress consider clarifying whether reading pro-
                   grams need to have scientific evidence of effectiveness in order to be eligible for funding
                   under the Reading First program and clarifying conflict of interest requirements in feder-
                   ally funded programs. For a copy of the Inspector General’s complete testimony, click
                   on this link: http://edlabor.house.gov/testimony/042007JohnHigginstestimony.pdf

ESEA SECRETARIAL   The ESEA/NCLB requires the Department to send an annual report to Congress summa-
WAIVERS            rizing any waivers of provisions of the NCLB the Secretary may have granted, as well as
                   publish the information in the Federal Register. During this reporting period, we con-
                   cluded an inspection to determine whether the Department had fulfilled this requirement.
                   We found that since the enactment of the NCLB in 2002, the Secretary granted 197 waiv-
                   ers but did not provide reports to Congress. Department officials stated that they would
                   do so in the near future for all waiver activity since 2002. In addition, at the start of our
                   work in February 2007, the Department had not published a notice of the Secretary’s
                   decision to grant each waiver in the Federal Register. We recommended that the Depart-
                   ment submit an annual waiver report to Congress, as well as regularly publish a notice of
                   each waiver in the Federal Register, as required by the ESEA/NCLB. The Department
                   generally concurred with our finding and recommendations, and in March, published a
                   list of all NCLB Secretarial waivers granted since 2002 in the Federal Register. It also
                   updated its website to include waiver information, and stated that it would also submit a
                   report to Congress on waivers granted since the enactment of the law. Click here for a
                   copy of our report.

UNSAFE SCHOOL      The issue of safe schools is one that OIG has been closely examining since 1999, first as
CHOICE OPTION      a part of the Gun Free Schools Act, and then as a provision within the ESEA/NCLB. In
                   2004, we initiated a series of audits on state compliance with the Unsafe School Choice
                   Option (USCO), the findings of which sparked additional review, including a survey of
                   all 50 states. Overall, our efforts disclosed an ineffective identification of persistently
                   dangerous schools (PDS) and a lack of incentive for state compliance with the USCO. In
                   addition, we identified common trends in state USCO policies that are not consistent
                   with the Department’s USCO non-regulatory guidance, which is non-binding, yet none-
                   theless important. This included common violent offenses being excluded from the PDS
                   determination, measuring disciplinary outcomes rather than the occurrence of violent
                   incidents, and requiring thresholds to be met for two to three consecutive years before
                   identifying a school as PDS.


                                                    9
                                                    9
                                                                     Semiannual Report To Congress: #55


                   During this reporting period, OIG issued a Perspective Paper on our overall findings and
                   recommendations from our work to assist Congress and the Department in determining
                   whether revisions to the USCO provision are needed. The paper provides three sugges-
                   tions and discusses other options for Departmental and Congressional consideration --
                   each aimed at strengthening the USCO statute and providing the incentive needed for
                   state and local officials to comply. Specifically, we suggested that: (1) all violent inci-
                   dents, according to state code, be factored into the PDS determination, without the use of
                   disciplinary action qualifiers; (2) benchmarks for determining PDS be set at reasonable
                   levels that are supported by objective and reliable data; and (3) PDS be identified based
                   upon the most current year of data. Click here for a copy of the report.

TITLE I FISCAL     To be eligible to receive ESEA Title I funds, an LEA must use state and local funds to
REQUIREMENTS -     provide services in Title I schools that, taken as a whole, are at least comparable to
COMPARABILITY OF   services provided in non-Title I schools. This is called “comparability of services,” and
SERVICES           ensures that an LEA uses state and local funds to provide services to Title I schools that
                   are essentially “comparable” or “the same” as the services that are provided to non-Title
                   I schools. This requirement ensures that Title I schools are not discriminated against in
                   the distribution of local resources. OIG has conducted a number of audits to assess SEA
                   compliance with this provision of the ESEA/NCLB, including one audit concluded
                   during this reporting period. As reported in previous SARs, our work identified a need
                   for improved internal controls by SEAs and LEAs to ensure that they are complying with
                   the statute, as well as a need for improved monitoring and oversight to ensure
                   compliance with the statute.

                         Illinois:
                         Our audit found that the Illinois State Board of Education (ISBE) did not ade-
                         quately monitor LEAs’ compliance with the comparability of services provision in
                         the 2004-2005 and 2005-2006 program years. It did not ensure that LEAs were
                         reporting complete and accurate comparability information or that all LEAs devel-
                         oped sufficient procedures for complying with the comparability of services
                         requirement. Specifically, two of the three LEAs we visited, the Chicago Public
                         Schools (Chicago) and Troy Community Consolidated School District (Troy),
                         reported inaccurate or unsupported comparability information to ISBE. In addi-
                         tion, ISBE did not follow-up with Chicago to ensure it made adjustments to its
                         comparability information. ISBE’s failure to perform adequate monitoring
                         allowed Chicago and Troy to report inaccurate data and allowed non-comparable
                         schools within Chicago to remain non-compliant. Based on our findings, we rec-
                         ommended that the Department require ISBE to return over $16.8 million in Title I
                         funds that Chicago allocated to non-comparable schools, as well as that portion of
                         over $529 million in Title I funds received by any additional schools that ISBE
                         determines to be non-comparable based on Chicago’s recalculation of its compara-
                         bility determinations for the time period reviewed. ISBE concurred with our find-
                         ings and all of our recommendations, except for the financial restitutions. Click
                         here for a copy of our report.




                                                  10
                                                  10
                                                                   Semiannual Report To Congress: #55


                  Grantee Accountability
NEW YORK:         Hempstead Union Free School District (Hempstead) is located in Nassau County, New
HEMPSTEAD UNION   York, and serves approximately 7,000 students in 10 schools. Hempstead expended
FREE SCHOOL       approximately $7.7 million in Title I program funds during the period from July 1, 2002,
DISTRICT          through June 30, 2004, of which $1.8 million was for non-salary expenditures. We con-
                  ducted an audit to determine whether Hempstead’s Title I non-salary expenditures were
                  allowable and spent in accordance with applicable laws and regulations. To meet our
                  objective, we randomly and judgmentally sampled $603,375 of the funds and found that
                  Hempstead could not provide adequate support for $118,040 and made $3,220 of unal-
                  lowable non-salary expenses. We noted that Hempstead had significant internal control
                  weaknesses that could adversely affect its ability to administer education funds. Based
                  on our findings, we made a number of recommendations aimed at improving the
                  accountability of its Title I non-salary expenditures, including that the Department
                  instruct the New York State Education Department (NYSED) to require Hempstead to
                  provide proper support for expenses charged to Title I or return the unsupported amounts
                  to the Department. The NYSED concurred with our findings and recommendations.
                  Click here for a copy of our report.

OHIO: COLUMBUS    During this reporting period, we concluded an audit to determine whether the funds
CITY SCHOOL       Columbus City School District (CCSD) expended for selected ESEA/NCLB programs
DISTRICT          were allocable, allowable, reasonable, and in accordance with approved budgets. The
                  programs selected were: (1) Title I, Part A – grants to local LEAs; (2) Title II, Part A –
                  improving teacher quality state grants; (3) Title II, Part D, Subparts 1 and 2, as amended
                  – education technology state grants; and (4) Title V, Part A – state grants for innovative
                  programs. CCSD operated 146 schools and career centers and received over $48.5 mil-
                  lion in federal funds for these programs during the period of our audit, July 1, 2005,
                  through June 30, 2006. While our audit found that generally, CCSD’s expenditure of
                  funds for the programs were allocable, allowable, reasonable, and in accordance with
                  approved budgets, CCSD did not always comply with federal requirements for employee
                  timekeeping or record its capital assets in the equipment inventory system. In 2005,
                  CCSD implemented a new system to track employee time and effort. Our audit esti-
                  mated that errors in the system and inadequate documentation of all employee personnel
                  charges resulted in charges to the NCLB programs of approximately $210,000 for non-
                  ESEA/NCLB employees and more than $2.3 million for unsupported ESEA/NCLB sala-
                  ries and wages. Based on our findings, we made a number of recommendations, includ-
                  ing that the Department instruct the Ohio Department of Education (ODE) to require
                  CCSD to determine the extent of the ESEA/NCLB funds paid for non-ESEA/NCLB per-
                  sonnel and unsupported pay transactions and return these funds to the Department. The
                  ODE did not specifically state whether it concurred with our findings, but it concurred
                  with most of our recommendations. Click here for a copy of the report.

PUERTO RICO:      The ESEA, as amended by the Improving America’s Schools Act of 1994, authorized the
CHARTER SCHOOLS   Charter Schools Program (CSP) – a grant program to states intended to enhance parent
                  and student choices among public schools and give more students the opportunity to
                                                 11
                                                 11
                                                                Semiannual Report To Congress: #55


               meet challenging standards. In 1995 and 1999 the Puerto Rico Department of Education
               (PRDE) submitted CSP grant applications, pursuant to which the Department awarded
               two grants: one in 1996 for over $4.3 million and a second in 1999 for over $5.8 million.
               We conducted an audit to determine if the PRDE was authorized by state law to establish
               charter schools and if it used the CSP funds it received from the Department to operate
               charter schools. We found that PRDE was authorized by state law to do so under the CSP
               grant awarded in 1996 and used these funds accordingly; however, we found it was not
               authorized to do so in 1999 and, thus, improperly used over $5 million in CSP funds to
               operate unauthorized charter schools. On June 30, 1999, one month after PRDE submit-
               ted its CSP grant application to the Department, Puerto Rico repealed the state law that
               enabled PRDE to establish charter schools. It was replaced with a new law that did not
               include certain provisions that would make PRDE eligible to receive CSP funds. Based
               on this finding, we recommended that the Department require PRDE to return over $5
               million in CSP funds it was not authorized to receive. PRDE disagreed with our finding
               and recommendation. Click here for a copy of the report.


               Investigations
               Our investigations into suspected fraudulent activity by SEAs, LEAs, and other federal
               education grantees have led to the arrest and conviction of a number of individuals who
               were in positions of public trust for theft or misuse of federal education funds. We will
               continue to aggressively pursue those who seek to defraud federal education programs at
               the expense of our nation's students. Here are a few examples of our work in this area
               over the last six months.

PUERTO RICO:   PRDE Civil Fraud Setttlement.
               The PRDE agreed to a $19 million civil fraud settlement agreement for repayment of
               funds it fraudulently obtained under the Migrant Education Program (MEP). This inves-
               tigation was opened based on the results of a 2005 OIG audit that determined the PRDE
               submitted improper child counts for MEP funding for the school district of Puerto Rico.
               Further investigation found that PRDE was not eligible to receive MEP grant awards in
               2002-2005, during which time it received approximately $13.5 million in MEP funds
               from the Department. According to the settlement, PRDE agreed to repay the Depart-
               ment the $13.5 million for the MEP funds it received, as well as an additional $5.5 mil-
               lion for damages and penalties under the False Claims Act.

               Former Title I Contractor Sentenced.
               A former Title I contractor in Puerto Rico was found guilty before the State Tribunal of
               San Juan of aggravated bribery and was sentenced to six years in jail. He was charged
               with making payments of $240,000 for the purposes of securing PRDE contracts issued
               by the former PRDE Secretary of Education. Our investigation disclosed that the con-
               tractor’s business was awarded Title I contracts of approximately $37 million and found
               that the contracts were awarded without full and open competition. As reported in previ-
               ous SARs, the former PRDE Secretary and the PRDE Associate Secretary are currently


                                              12
                                              12
                                                                       Semiannual Report To Congress: #55

                    serving 12- and 11-year jail terms respectively, based on charges relating to a $4.3 mil-
                    lion contractor kickback scheme.

TEXAS:              Two Former Dallas Independent School District Employees Sentenced.
                    Two former Dallas Independent School District (DISD) employees were sentenced to
                    prison for embezzlement. Our investigation, conducted jointly with the FBI, revealed
                    that over a three-year period, the individuals used DISD procurement cards to purchase
                    numerous personal items for their own use, including clothing, personal products, and
                    various household items. One of the employees was sentenced to 12 months in prison,
                    followed by two years of supervised release, and was ordered to pay $100,000 in restitu-
                    tion. The second employee was sentenced to 18 months in prison, three years of super-
                    vised release, and was ordered to pay over $64,600 in restitution.

                    Guilty Plea by Former Pharr-San Juan-Alamo Independent School District
                    Contractor.
                    A former Pharr-San Juan-Alamo Independent School District (PSJA-ISD) contractor
                    pled guilty to conspiracy to commit bribery concerning a program receiving federal
                    funds. Our joint investigation with the FBI and the IRS-CID revealed that the contractor
                    and a co-conspirator paid $65,000 to a PSJA-ISD school board member in order to
                    obtain advantages not available to other companies competing for district-related con-
                    struction contracts.

WASHINGTON, D.C.:   Former Public School Official Pled Guilty.
                    The former Executive Director of the District of Columbia’s Office of Charter School
                    Oversight pled guilty to theft from a program receiving federal funds and federal tax eva-
                    sion. The former official admitted to embezzling over $380,000 in ESEA/NCLB and
                    other federal funds from the District of Columbia and steering no-bid contracts totaling
                    over $400,000 to friends and family members in return for over $180,000 in kickbacks
                    and other fraudulent payments. As part of the plea agreement, the former official agreed
                    to pay over $380,000 in restitution. Sentencing is scheduled for November; the official
                    could face a prison term of three years.


INFORMATION SECURITY AND MANAGEMENT AND
DEPARTMENT INTERNAL OPERATIONS
                    OIG’s reviews of the Department’s information security and management and internal
                    operations are designed to help improve the overall operation of this mission-focused
                    agency. Our reviews seek to help the Department accomplish its objectives by ensuring
                    the reliability and integrity of its data, its compliance with applicable policies and
                    regulations, its ability to safeguard its assets, and that it is effectively and efficiently
                    utilizing the taxpayer dollars with which it has been entrusted. “Information security” is
                    an all-encompassing term that refers to the security of the information systems that are
                    used and the data that is processed. “Information management” is the entire process of
                    defining, evaluating, protecting, and distributing data. These are areas where prior OIG
                    work has identified problems, including security weaknesses that the Department must
                    address to maintain the certification and accreditation of its information systems. During
                    this reporting period, our work revealed much of the same: system security controls

                                                    13
                                                    13
                                                               Semiannual Report To Congress: #55

              were deficient and did not adequately protect the processing of student financial
              assistance data, and the Department ineffectively carried out several key project
              management controls in the re-implementation of its financial management support
              system.

              In the area of internal operations, past audits have uncovered problems with grant and
              contract activities. For example, our 2006 audit of the Department’s monitoring process
              for Institute of Education Sciences’ contracts found that the Department staff did not
              always ensure that contractors adhered to contract requirements, or that the Department
              received the products and services intended. We identified similar results in an audit on
              FSA’s monitoring of its significant contracts (discussed previously in this SAR), as well
              as an audit on the effectiveness of the Department’s management of the Education Net-
              work (EDNet) contract. Our work is discussed in more detail below.


              Information Security and Management
              Concerns over several government agencies’ abilities to provide effective information
              security and protect critical data have been voiced by Congress and fueled by numerous
              media accounts of security breaches, missing data, or inappropriate access to govern-
              ment data by outside sources. With so much at stake, the Department must improve its
              efforts in information security and management and hold its staff and contractors
              accountable for protecting and managing the systems that house this vital and confiden-
              tial information. Work concluded during this reporting period identified weaknesses in
              information security and information management, including information technology
              (IT) systems and resources.

FISMA         The E-Government Act of 2002, signed into law by President George W. Bush, recog-
REQUIREMENT   nized the importance of information security to the economic and national security inter-
              ests of the United States. Title III of the E-Government Act, entitled the Federal
              Information Security Management Act (FISMA) of 2002, requires each federal agency to
              develop, document, and implement an agency-wide program to provide information
              security for the information and information systems that support the operations and
              assets of the agency, including those provided or managed by another agency, contractor,
              or other source. It also requires the Inspectors General to perform independent evalua-
              tions of the effectiveness of information security control techniques and to provide
              assessments of the agency’s compliance with FISMA.

              In support of our FY 2007 FISMA requirement, OIG evaluated management, opera-
              tional, and technical controls of FSA’s system security program. The objectives included
              auditing an FSA-outsourced service provider that hosts the Common Origination and
              Disbursement (COD) system. The COD system was implemented in April 2002 to cre-
              ate a single system and a common process for processing, storing, and reconciling Fed-
              eral Pell Grants and Direct Loans. The number of new unique records is estimated at
              27.3 million for FY 2007, 30 million for FY 2008, and 33 million for FY 2009. During

                                             14
                                             14
                                                                    Semiannual Report To Congress: #55


                   our audit, we identified a serious deficiency in FSA’s monitoring and oversight of the
                   COD system contractor. In addition, system security controls were deficient and did not
                   adequately protect the processing of student financial assistance program data. We made
                   a series of recommendations to address these weaknesses, with which the Department
                   concurred. Our FISMA audits fall under exemption (b)(2) of the Freedom of Informa-
                   tion Act; therefore we discuss only the general/public aspects of our work and findings.
                   For security purposes and to maintain the integrity of the Department’s critical data,
                   these audits are not posted on our Web site or shared outside official channels.

FINANCIAL          During this reporting period, we concluded an audit to assess the effectiveness of overall
MANAGEMENT         project management of the Department’s Financial Management Support System re-
SUPPORT SYSTEM     implementation. We found that the Department ineffectively carried out several key
RE-                project management controls, and its performance measurement baselines were insuffi-
IMPLEMENTATION     cient for accountability and were not adequately maintained. These problems occurred
                   initially because the project management team (PMT) and implementation contractor
                   (IC) did not follow their project management plans. In addition, there was a lack of
                   effective project monitoring and controls by staff in the Office of the Chief Financial
                   Officer, as well as ineffective oversight by the investment’s steering committee and IT
                   capital planning and investment control processes. As a result of these weaknesses, the
                   Department’s PMT and IC did not adequately account for project results, and system
                   development did not meet scheduled expectations. Also, inaccurate earned value report-
                   ing and uncontrolled changes undermined the original project baselines, which had an
                   adverse and cascading effect on risk management and contract administration, including
                   improper payments to the IC. Additionally, decision-makers and stakeholders lacked
                   objective and accurate information about project status for making investment manage-
                   ment decisions. Based on our findings, we made a number of recommendations, which
                   the Department stated were extremely useful and would be used to improve the Depart-
                   ment’s overall effectiveness in system implementations. Click here for a copy of the
                   report.

TERMINATION OF     EDNet is a major information system that supports primary IT services for the Depart-
EDNET ACCESS FOR   ment and also serves as the chief communications link between the Department’s head-
SEPARATED          quarters and the various regional and satellite offices. In May, we concluded our audit to
EMPLOYEES          determine whether access to EDNet was terminated timely for employees who separated
                   from the Department and in cases where it was not, determine whether separated
                   employees accessed EDNet after their departure. We found that improvements were
                   needed in the Department’s process for terminating EDNet access for separated employ-
                   ees: requests for account terminations were not submitted timely; documentation of
                   Help Desk actions was not always maintained; and procedures established to identify
                   users whose accounts should be removed were not followed. As a result, accounts
                   belonging to former employees remained active after the employees’ separation from the
                   Department. Because these accounts remained active, six individuals accessed their
                   email accounts after their separation date. These separated employees may have used
                   the Department’s computer systems for unauthorized purposes. Based on our findings,
                   we made a number of recommendations to ensure EDNet access for separated employees

                                                  15
                                                  15
                                                                   Semiannual Report To Congress: #55


                is terminated in a timely manner. The Department agreed with our findings and pro-
                posed corrective actions to strengthen its controls. Click here for a copy of the report.


                Internal Operations
                The success of an organization’s mission and the achievement of its goals depend on
                how well it manages its programs. It cannot effectively manage its programs without
                establishing and maintaining appropriate accountability. As you will read in the summa-
                ries that follow, our recent audits and inspections of a number of Department programs
                and vendors responsible for high-dollar contracts continue to show a lack of adequate
                accountability in this area.

CONGRESSIONAL   Congressional earmarks are funds provided by Congress for projects or programs where
EARMARKS        the Congressional direction is included in bill or report language. In January 2007, U.S.
                Senator Tom Coburn (R-Oklahoma) requested that OIG conduct an independent analysis
                of the cost, impact, and oversight of Congressional earmarked grants administered by the
                Department for FY 2005. In response to this request, we initiated an inspection that
                focused on active earmarks in the two program offices with the majority of earmarks:
                the Office of Postsecondary Education (OPE) for earmarks included in the Fund for the
                Improvement of Postsecondary Education (FIPSE); and the Office of Innovation and
                Improvement for earmarks included in the Fund for the Improvement of Education
                (FIE). We identified 2,594 active earmarks in these programs in FY 2005, with recipi-
                ents drawing down more than $369.6 million, and determined that the total cost associ-
                ated with administering these earmarks was more than $2.1 million. The average
                amount of staff time spent on all activities relating to administering these earmarks was
                approximately 6 hours per earmark for FIPSE staff and 35 hours per earmark for FIE
                staff.

                Overall, we determined that the Department experienced a significant increase in the
                number of Congressional earmarks in FY 2005; however, Congress did not provide the
                Department with any additional funding for the costs associated with administering ear-
                marks. We determined that roughly 82.7 percent of the earmarks from FIPSE and FIE
                were aligned with the Department’s goals and objectives; however, the Department does
                not assess whether the earmark projects do or do not further its mission, as the Depart-
                ment has little discretion in determining whether to fund an earmark or whether it should
                require that an earmark be aligned with the Department’s goals and objectives. Depart-
                ment officials stated that earmarks are an inefficient use of taxpayer dollars, and that, by
                their very nature, earmarks limit the ability of the Department to direct funds where they
                are most needed and where the funds have the greatest potential for achieving successful
                outcomes. Based on the findings of our inspection, we recommended that the Depart-
                ment develop a methodology to ensure that earmark recipients are held accountable for
                the federal funds they receive. The Department generally concurred with our findings
                and recommendation. Click here for a copy of the report.


                                                16
                                                16
                                                                    Semiannual Report To Congress: #55

MANAGEMENT OF    In 2005, the Department awarded the performance-based EDNet contract to acquire IT
THE EDNET        network services with the main goal of improving all services to Department customers
CONTRACT         and lowering costs to the Department. In July 2006, the Department extended the con-
                 tract for an additional year, with the funding increased to over $45.8 million. We con-
                 ducted an audit to determine the effectiveness of the Department’s management of the
                 EDNet contract, and we found that significant improvement was needed.

                 Our work revealed that the EDNet contract structure and subsequent changes were not
                 effective in managing contractor performance. Specifically, the structure of the contract
                 did not provide effective performance incentives or disincentives to allow for timely
                 enforcement of an acceptable level of performance. We also found a contract modifica-
                 tion was not fully evaluated to consider whether a reduction in cost was appropriate for
                 the reduced level of effort required by the contractor; thus, the contractor had little incen-
                 tive to perform. In addition, we found that the Department’s controls did not ensure the
                 contractor provided the quality and services required by the contract. Department offi-
                 cials also provided inappropriate direction to the contractor that changed the scope,
                 requirements, and/or due dates for some deliverables. This resulted in the Department
                 paying for a quality or level of services it did not receive and an asset management sys-
                 tem that did not meet contract requirements and duplicated some activities of other
                 Department contractors. We also noted that the Department’s contract administration
                 practices were not effective, as they did not ensure appropriate personnel were assigned
                 to manage and oversee the contract, and the staff that were involved did not always com-
                 ply with applicable federal regulations and Department policies and procedures. As a
                 result, the Department did not have complete documentation of the contractor’s perfor-
                 mance. It also lacked assurance that the contractor fully complied with the terms and
                 conditions of the contract, and that the contractor provided all required deliverables for
                 which the Department paid. We made 19 recommendations to help the Department cor-
                 rect the weaknesses identified in our audit. The Department concurred with our findings
                 and recommendations and provided a corrective action plan to address each recommen-
                 dation. Click here for a copy of the report.

DISCRETIONARY    OPE administers over 40 grant programs that address critical needs to support its
GRANT AWARD      mission, including several discretionary grant programs. Funding decisions under
PROCESS IN THE   discretionary grant programs are based largely on the results of the application review
OFFICE OF        process. We conducted an audit to evaluate the effectiveness of OPE’s grant award
POSTSECONDARY    process and to determine if its FY 2005 awards were made to appropriately qualified
EDUCATION        entities. While we found that OPE generally established an effective award process and
                 made awards to qualified entities within the programs reviewed, we did note that OPE
                 staff did not ensure grantees complied with the Office of Management and Budget
                 (OMB) Circular A-133 audit requirements. As a result, OPE lacks assurance that
                 grantees are in compliance with reporting requirements and are appropriately managing
                 federal funds. We recommended that the Department take action to ensure that staff is
                 aware of and screens for compliance with audit requirements. OPE concurred with our
                 finding and recommendation. Click here for a copy of the report.



                                                 17
                                                 17
                                                                     Semiannual Report To Congress: #55

MANAGEMENT         The John Warner National Defense Authorization Act of Fiscal Year 2007 included a
PROCEDURES UNDER   requirement for OIG and the U.S. Department of Defense Office of Inspector General
THE RANDOLPH-      (DoD-OIG) to jointly review the management procedures under both the Randolph-
SHEPPARD ACT AND   Sheppard Act (RSA) and the Javits-Wagner-O’Day Act (JWOD) with regard to military
JAVITS-WAGNER-     dining facilities. The RSA gives priority to blind persons in the operation of vending
O’DAY ACT          facilities on federal property; JWOD, in part, provides employment opportunities to
                   individuals who are blind or have other severe disabilities. During this reporting period,
                   we issued the results of our review. DOD-OIG will be issuing a separate report on the
                   results of its review. First, we determined the Department is not responsible for the
                   administration of the JWOD program; therefore, we did not review nor comment on that
                   program’s management procedures. Second, in January, the Government Accountability
                   Office (GAO) issued a report entitled, “Federal Disability Assistance: Stronger Federal
                   Oversight Could Help Assure Multiple Programs’ Accountability,” where it reviewed
                   four employment-related programs aimed at helping people with disabilities obtain jobs,
                   including the RSA, which is coordinated through the Department of Education. GAO
                   found that no performance goals or measures existed for the RSA program and the
                   Department conducted little oversight. GAO recommended that the Department
                   establish goals for the RSA program and strengthen program monitoring and guidance.
                   Our review was being conducted while GAO was in the process of preparing its final
                   draft report. As a result, we did not identify concerns beyond those reported by GAO,
                   and we found that the Department was developing goals and objectives to improve the
                   program’s management, accountability, and performance. The Department concurred
                   with our finding. Click here for a copy of the report.


HURRICANE-RELATED EFFORTS
                   During this reporting period, OIG continued its efforts to assess whether Hurricane Edu-
                   cation Recovery Act (HERA) dollars were expended as required by federal law, regula-
                   tions, and Department guidance. HERA, passed as part of Public Law 109-148 in 2005,
                   authorized new grant programs to assist school districts and schools in meeting the edu-
                   cational needs of students displaced by Hurricanes Katrina and Rita and to help schools
                   closed as a result of the hurricanes to re-open as quickly and effectively as possible.
                   These programs included the Immediate Aid to Restart School Operations program
                   (Restart), funded at $750 million, and the Temporary Emergency Impact Aid for Dis-
                   placed Students (EIA) program, funded at $645 million. In addition, the law included
                   $200 million for students and institutions of postsecondary education affected by the
                   hurricanes. In June 2006, Congress appropriated an additional $235 million for the EIA
                   program, and an additional $50 million for postsecondary institutions and students in the
                   Emergency Supplemental Appropriations Act for Defense, the Global War on Terror, and
                   Hurricane Recovery Act of 2006. On May 25, 2007, President Bush signed into law the
                   U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability
                   Appropriations Act of 2007 (P.L. 110-28). The law provide $30 million more for the
                   higher education programs and $30 million more for recruiting, retaining, and compen-
                   sating new and current educators in Alabama, Louisiana, and Mississippi.



                                                  18
                                                  18
                                                                      Semiannual Report To Congress: #55


                   As such a large amount of funding was distributed in a short amount of time, establishing
                   effective procedures, processes, and accountability measures was vital. During this
                   reporting period, we issued seven reports in this area, specifically assessing procedures
                   and processes established by grant recipients, as well as adherence to the specific pro-
                   gram’s requirements. While overall we found that the SEAs and LEAs established pro-
                   cesses and procedures to distribute hurricane-related funds in accordance with applicable
                   laws and regulations, we did identify problems with the quality of reported data, particu-
                   larly in the area of displaced student counts, which provide the basis for EIA funding.
                   Below is a summary of the hurricane-related audits we issued during this reporting
                   period.


                   Alabama
TEMPORARY          The EIA program provided funds to SEAs to cover the cost of educating displaced stu-
EMERGENCY IMPACT   dents. To receive aid, eligible SEAs were required to provide quarterly enrollment
AID FUNDING        counts of displaced students, and received up to $1,875 per quarter for each displaced
                   student with disabilities and up to $1,500 per quarter for each displaced student without
                   disabilities. The Department obligated over $36.6 million in EIA funds to the Alabama
                   State Department of Education (ALSDE) to disburse to its impacted LEAs. We con-
                   ducted an audit to determine if the ALSDE and two selected LEAs established adequate
                   systems of internal control to provide accurate displaced student counts. We also exam-
                   ined whether ALSDE made accurate allocations of EIA funds to the LEAs, and if the
                   LEAs used the EIA funds for allowable expenditures. The two LEAs we selected repre-
                   sented about 48 percent of the total displaced students for the state. Our audit revealed
                   that while ALSDE had adequate processes and procedures in place and made accurate
                   allocations of EIA funds to the LEAs, ALSDE and the LEAs did not have adequate sys-
                   tems of internal control to provide accurate EIA displaced student counts. ALSDE’s dis-
                   placed student counts for the time period reviewed included students who should not
                   have been included in the counts and students whose documentation did not support their
                   classifications as students with disabilities. We also found that ALSDE counted some
                   students more than once in the same quarter. As a result, ALSDE received about $4.5
                   million more in EIA funds than it should have received. We recommended that the
                   Department instruct ALSDE to return the EIA funds it received for students that were
                   not eligible to be classified as displaced students, for those that did not meet the defini-
                   tion of a displaced student with disabilities, and for those students who were counted
                   more than once in the same quarter. ALSDE disagreed with our findings and recommen-
                   dations. Click here for a copy of our report.

RESTART FUNDING    The Restart program provided funding to SEAs in Alabama, Louisiana, Mississippi, and
                   Texas to provide assistance or services to LEAs and non-public schools to help defray
                   expenses related to the restart of operations in the reopening of, and the re-enrollment of,
                   students in elementary and secondary schools. Congress appropriated $750 million for
                   the Restart program, with the Department allotting $3.75 million to Alabama. In deter-
                   mining the Restart amount to be provided to its LEAs for services or assistance, the

                                                   19
                                                   19
                                                                     Semiannual Report To Congress: #55


                   ALSDE considered: (1) the number of children served by the LEA or non-public schools
                   for schools that were closed by the hurricanes; (2) the severity of the impact the hurri-
                   canes had on the LEA or non-public school; and (3) the extent of the needs of each LEA
                   or non-public school in the impacted areas. As of January 2007, ALSDE had provided
                   funding to just one district, allotting nearly $1 million to the Mobile Public School Sys-
                   tem (Mobile). We conducted an audit to determine if ALSDE established a system of
                   internal controls that provided reasonable assurance that Restart funds were appropri-
                   ately allocated, and if Mobile used Restart funds for expenditures that were allowable
                   under the terms of the grant and applicable laws and regulations. Our audit found that
                   both ALSDE and Mobile appropriately allocated and expended the Restart funds. Click
                   here for a copy of the report.


                   Louisiana
TEMPORARY          Similar to our audit in Alabama, we examined EIA funding at the Louisiana Department
EMERGENCY IMPACT   of Education (LDE) and four of its LEAs. LDE received over $290 million in EIA fund-
AID FUNDING        ing to assist school districts within the state that served displaced students. EIA funding
                   to LEAs was based on each LEA’s quarterly counts of the number of displaced students it
                   served. The four LEAs we reviewed were selected because they had the highest dis-
                   placed student counts, comprising 48 percent of the EIA funding provided to Louisiana.
                   We found that while LDE made accurate allocations of EIA funds to the LEAs, LDE and
                   the LEAs did not have adequate systems of internal control to provide accurate EIA dis-
                   placed student counts. LDE submitted incorrect student count data to the Department
                   that included ineligible students, misclassified students, and duplicate students within the
                   state. As a result, LDE received a total estimated overpayment exceeding $6.3 million in
                   EIA funds. In addition, neither the LDE nor the LEAs had policies or procedures in
                   place to ensure incoming displaced students were not counted in other states. We also
                   found that Texas and Louisiana counted the same 533 students in one quarter, which
                   resulted in the LDE and the associated LEAs receiving a possible overpayment of up to
                   $799,500 in EIA funds. We made a number of recommendations, including that the
                   Department require LDE to provide support or repay more than $5.89 million for ineligi-
                   ble students identified at the four LEAs we reviewed, as well as return or provide support
                   for over $411,000 for the statewide duplicate students reported. LDE disagreed with our
                   findings and recommendations. Click here for a copy of the report.

HIGHER EDUCATION   As a result of the damages caused by Hurricanes Katrina and Rita, the federal govern-
RELIEF FUNDING     ment allotted $95 million to the Louisiana Board of Regents (BOR) to provide emer-
                   gency assistance to higher education institutions that were located in an area affected by
                   hurricanes and forced to close, relocate, or significantly curtail their activities. The
                   funds were to be used for student financial assistance, faculty and staff salaries, equip-
                   ment, instruments, or any purpose authorized under the HEA. The Department and the
                   BOR signed an agreement that provided the funding for a two-year period beginning on
                   January 17, 2006, and ending on January 16, 2008. The agreement required the BOR to
                   allocate the funds by September 30, 2006, and prescribed that the funds were to be used

                                                  20
                                                   20
                                                                    Semiannual Report To Congress: #55


                   in accordance with applicable laws and regulations. The Department is responsible for
                   overseeing the BOR’s compliance with federal laws and regulations. During this report-
                   ing period, we concluded an audit that sought to assess the adequacy of the BOR’s inter-
                   nal controls over the allocation of hurricane assistance funding, accounting for the
                   expended funds, and its compliance with laws and regulations. To accomplish our objec-
                   tives, we assessed the BOR’s internal controls at six schools that received 62 percent of
                   the funding: Delgado Community College; Dillard University; Loyola University; Uni-
                   versity of New Orleans; Tulane University; and Xavier University. Although we found
                   that the BOR had adequate internal controls over the allocation of funding, we deter-
                   mined that it needed to strengthen its controls for monitoring the proper use of the funds
                   and compliance with laws and regulations. The BOR disbursed funds based on expendi-
                   ture amounts certified by school officials; however, it did not require schools to provide
                   supporting documentation of how the funds were spent.

                   We recommended that BOR strengthen its monitoring controls by requiring supporting
                   documentation to ensure that expenditures were allowed by the terms of the grant and
                   applicable laws and regulations, and that the expenditures were accurately accounted for
                   and reported. The BOR agreed with the objectives of our recommendations but objected
                   to our conclusion that it had inadequate controls. Click here for a copy of the report.


                   Mississippi
TEMPORARY          Similar to our audits in Alabama and Louisiana, we examined EIA funding at the Missis-
EMERGENCY IMPACT   sippi Department of Education (MDE) and six of its LEAs. MDE received over $100
AID FUNDING        million in EIA funding for the time period reviewed, and distributed those funds to each
                   LEA based on its quarterly counts of displaced students. The six LEAs we reviewed had
                   the highest displaced student counts, comprising 41 percent of Mississippi’s initial total
                   number of displaced students. Our audit found that all six LEAs reported inaccurate dis-
                   placed student counts to MDE. As a result, MDE may have received more than $3.1 mil-
                   lion in excess of its entitlement for EIA funds. We found that MDE and the LEAs had
                   weak internal controls over displaced student counts, and MDE had no mechanism in
                   place to test the reliability of the student count data received from LEAs. We found that
                   LEAs misidentified displaced students, counted displaced students twice in the same
                   quarter, and could not provide complete support for displaced student counts. We made
                   a number of recommendations, including that the Department require MDE to provide
                   support or repay more than $3.1 million for inaccurate counts of displaced students.
                   MDE generally concurred with our finding and related recommendations but did not
                   agree with our use of projections in recommending the return of funds related to the
                   LEAs’ misidentification of displaced students. Click here for a copy of the report.

RESTART FUNDING    Similar to our audit in Alabama, we conducted an audit of Restart funding at the MDE.
                   Of the $750 million Congress appropriated for the Restart program, over $222 million
                   went to Mississippi. We found that MDE and the five LEAs reviewed in our sample had
                   adequate systems of internal control over the administration of the Restart program for

                                                  21
                                                  21
                                                                     Semiannual Report To Congress: #55


                   the public schools, and provided accurate data in the needs assessment and applications.
                   We also found that MDE made accurate allocations of Restart funds to the LEAs. In
                   addition, MDE and the LEAs used Restart funds for expenditures allowable under the
                   terms of the grant and applicable laws and regulations. We did, however, find that MDE
                   had weak internal controls over the program’s administration for the non-public schools:
                   MDE awarded a Restart contract to monitor non-public schools to a contractor with an
                   apparent conflict of interest; MDE initially disbursed Restart funds directly to non-public
                   schools in violation of the HERA; and MDE did not maintain public control of the equip-
                   ment purchased with that disbursement. We made a number of recommendations to
                   address these weaknesses. MDE concurred with our findings, and stated it was taking
                   corrective action to address our recommendations. Click here for a copy of the report.


                   Texas
TEMPORARY          Similar to our work in Alabama, Louisiana, and Mississippi, we conducted an audit of
EMERGENCY IMPACT   EIA funds at the Texas Education Agency (TEA) and seven of its LEAs. Of the $880
AID FUNDING        million Congress appropriated for the EIA program, Texas received $250.9 million. For
                   the time period we reviewed, TEA drew down more than $234.8 million based on LEA
                   quarterly counts of displaced students. The seven LEAs reviewed received a combined
                   $93 million in EIA funds. We found that TEA made accurate allocations of EIA funds to
                   the LEAs, and EIA funds were expended within allowable cost categories. Specifically,
                   TEA allocated the correct amount of funds to the LEAs for students with and without
                   disabilities based on the LEAs’ counts, and EIA funds were then used to reimburse the
                   LEAs for salary and benefit costs already incurred. We did find, however, that TEA and
                   the LEAs did not have adequate systems of internal control to provide accurate displaced
                   student count data, which is the basis for the amount of funds received. TEA submitted
                   incorrect student-count data that included ineligible students, misclassified students, and
                   duplicate students within the state. In addition, neither TEA nor the LEAs had policies
                   or procedures in place to ensure incoming displaced students were not counted, in the
                   same quarter, in other states. As a result of the inadequate controls over the displaced
                   student counts, TEA received a total estimated overpayment of over $10 million in EIA
                   funds for the period reviewed. As previously stated, we also found that Texas and Loui-
                   siana both counted 533 students in the same quarter, which resulted in TEA and the asso-
                   ciated LEAs receiving a possible overpayment of up to $799,500 in EIA funds.

                   We made several recommendations, including that the Department instruct TEA to pro-
                   vide support for or return approximately $6.9 million of EIA funds for ineligible students
                   identified at the districts we reviewed; provide support or return over $3.4 million of EIA
                   funds for the statewide duplicate students reported; and conduct a statewide count of dis-
                   placed students for the over $250 million of EIA funds allocated to TEA in school year
                   2005-2006 and return to the Department any funds expended for ineligible or misclassi-
                   fied students. While TEA concurred with certain aspects of our finding, it did not concur
                   with our recommendations. Click here for a copy of our report.


                                                  22
                                                  22
                                                                    Semiannual Report To Congress: #55


                  Investigation
INDIANA:          Individual Sentenced for Fraud:
                  In the wake of the 2005 hurricanes and distribution of billions of dollars in relief fund-
                  ing, the U.S. Department of Justice issued a “zero tolerance” policy for fraud related to
                  hurricane funds. During this reporting period, OIG Special Agents followed-through on
                  that mandate, working with their counterparts from the U.S. Department of Homeland
                  Security OIG and the SSA-OIG on a case involving theft of hurricane relief funding. In
                  May, an individual was sentenced to 105 months in prison, five years of supervised
                  release, and was ordered to pay over $183,000 in restitution for theft of Hurricane Kat-
                  rina Federal Emergency Management (FEMA) relief funds, false use of social security
                  numbers, and student financial assistance fraud. Our joint investigation revealed that the
                  individual submitted fraudulent applications for and received funds to which he was not
                  entitled from the Department, FEMA, a private educational loan company, and other
                  lending and credit card institutions.


Other Noteworthy Efforts
                  Non-Federal Audits
                  Participants in Department programs are required to submit annual audits performed by
                  independent public accountants (IPAs). We perform quality control reviews (QCRs) of
                  these audits to assess their quality. We completed 42 QCRs of audits conducted by 42
                  different IPAs, or offices of firms with multiple offices. We concluded that 19 (45 per-
                  cent) were acceptable, 18 (43 percent) were technically deficient, and 5 (12 percent)
                  were substandard.


                  President’s Council on Integrity and Efficiency
                  Inspector General Higgins continues to chair the Audit Committee of the President’s
                  Council on Integrity and Efficiency (PCIE). Highlights from this reporting period
                  include:

RESULTS OF THE    Under the leadership of Committee Chairman Higgins, the PCIE Audit Committee
NATIONAL SINGLE   released the results of its National Single Audit Sampling Project. This government-wide
AUDIT SAMPLING    Project had two goals: determine the quality of single audits and recommend changes in
PROJECT           single audit requirements, standards, and procedures to improve the quality of single
                  audits. Based on the results of a review of 208 randomly selected audits, we estimate
                  that just short of half of the audits in the population from which the sample was drawn –
                  forty-eight point six (48.6) percent – were acceptable; sixteen percent (16%) had
                  significant deficiencies and thus were of limited reliability; and thirty-five point five
                  percent (35.5%) were unacceptable. The sample was stratified into two strata: large
                  single audits, i.e., those reporting expenditures of federal awards of $50 million or more;
                  and those reporting $500 thousand up to $50 million. While the Project results indicate
                                                 23
                                                 23
                                                 Semiannual Report To Congress: #55

significant numbers of audits that were not acceptable, audits reporting large dollar
amounts of federal awards were significantly more likely to be of acceptable quality than
other single audits. Whether an audit was deemed acceptable, of limited reliability, or
unacceptable was a judgment made based on whether there were deficiencies noted, and
if so, their severity. Based on the findings, the Audit Committee made recommendations
to OMB. Specifically, it recommended a three-pronged approach to improve audit
quality: (1) revise and improve single audit criteria, standards, and guidance to address
deficiencies identified by the Project; (2) establish minimum requirements for
completing comprehensive training on performing single audits as a prerequisite for
conducting single audits and require single audit update training for continued
performance of single audits; and (3) review and enhance processes to address
unacceptable audits and auditors not meeting established training and continuing
professional education requirements. For a copy of the report, click on this link: http://
www.ignet.gov/pande/audit/NatSamProjRptFINAL2.pdf




                               24
                               24
                                           Semiannual Report to Congress Number 55


Reporting Requirements of the Inspector General Act, as Amended

    Section                                 Requirement                                 Table Number
  5(a)(1) and              Significant Problems, Abuses, and Deficiencies
    5 (a)(2)                       Activities and Accomplishments                           NA
    5(a)(3)                     Uncompleted Corrective Actions
                       Recommendations Described in Previous SARs on which                   1
                             Corrective Action Has Not Been Taken
    5(a)(4)                Matters Referred to Prosecutive Authorities
                                        Statistical Profile                                  7
  5(a)(5) and                Summary of Instances where Information
    6(b)(2)                      was Refused or Not Provided                                NA
    5(a)(6)                              Listing of Reports
                  OIG Audit Services Reports on Department Programs and Activities           2
                     Other OIG Reports on Department Programs and Activities                 3
    5(a)(7)                       Summary of Significant Audits
                                  Activities and Accomplishments                            NA
    5(a)(8)                 Audit Reports Containing Questioned Costs
                           OIG Issued Audit Reports with Questioned Costs                    4
    5(a)(9)               Audit Reports Containing Recommendations for
                                         Better Use of Funds                                 5
                OIG Issued Audit Reports with Recommendations for Better Use of Funds
   5(a)(10)          Summary of Unresolved Audit Reports Issued Prior to the
                                 Beginning of the Reporting Period
                          Unresolved Reports Issued Prior to October 1, 2006                 6
   5(a)(11)                 Significant Revised Management Decisions
                                                                                            NA
   5(a)(12)                    Significant Management Decisions with
                                        which OIG Disagreed                                 NA
   5(a)(13)       Unmet Intermediate Target Dates Established by the Department
                  Under the Federal Financial Management Improvement Act of 1996            NA




                                                 25
                                                       Semiannual Report to Congress Number 55

 Table 1: Recommendations Described in Previous SARs on Which Corrective Action Has
 Not Been Completed
 Section 5(a)(3) of the IG Act as amended requires a listing of each report resolved before the commencement of the
 reporting period for which management has not completed corrective action. The reports listed below are OIG
 internal and nationwide audit reports.
     Report                  Report Title                Date         Date         Total         Number of         Latest
    Number          (Prior SAR Number and Page)         Issued     Resolved      Monetary     Recommendations      Target
                                                                               Findings     Open     Closed        Date
                                                                                                                 (Per Corrective
                                                                                                                  Action Plan)

 NEW AUDITS SINCE LAST REPORTING PERIOD
Office of the Chief Financial Officer (OCFO)
 A05F0015        Department’s Monitoring of          3/22/2006     6/30/206                    1         6      12/31/2007
                 Adherence to Matching
                 Requirements (SAR 52, page
                 27)
Office of the Chief Information Officer (OCIO)
 A11F0002        Review of the Department’s          10/6/2005   11/16/2005                    7         2      12/31/2007
                 Incident Handling Program
                 EDNet Security Controls (OCIO
                 is designated as lead action
                 official and OCFO and FSA as
                 the other action officials) (SAR
                 52, page 28)
 A11F0006        Audit of the Department’s IT        1/31/2006    5/25/2006                    4         0      12/31/2007
                 Contingency Planning Program –
                 Asset Classification (SAR 52,
                 page 28)
AUDITS REPORTED IN PREVIOUS SARs
FSA
A04E0006         Death and Total and Permanent     11/14/2005      2/24/2006                  1          3      3/31/2008
                 Disability Discharges of FFEL and
                 Direct Loan Program Loans (SAR
                 52, page 27)
OCFO
A19D0007         Audit of the Department’s           3/31/2005    8/8/2005                    1          9      11/30/2007
                 Followup Process for External
                 Audits (SAR 50, page 22)
OCIO
A19F0009         Telecommunications Billing          2/1/2006     3/22/2006                   4          3      9/30/2008
                 Accuracy (SAR 52, page 28)

Office of the Deputy Secretary (ODS)
A09E0014         Departmental Actions to Ensure     10/26/2004 1/10/2005                      3          3      9/30/2007
                 Charter Schools’ Access to Title I
                 and IDEA Part B Funds (OESE
                 and OSERS also designated as
                 action officials) (SAR 50, page
                 22)




                                                            26
                                                          Semiannual Report to Congress Number 55

Report                      Report Title                   Date         Date        Total            Number or       Latest Target
Number             (Prior SAR Number and Page)            Issued      Resolved      Monetary       Recommendations    Date (Per
                                                                                    Finding                           Corrective
                                                                                                OPEN      CLOSED     Action Plan)
Office of Management
A19D0008         Audit of the Department’s              3/30/2005     5/13/2005     $14,366          0       16           *
                 Management of the Federal
                 Employees’ Compensation Act
                 Program (SAR 50, pg 23)
Office of Planning, Evaluation & Policy Development
A11E0003         Audit of the Department’s              9/29/2005     3/28/2006                      0       14           *
                 Performance Based Data
                 Management Initiative (SAR 51,
                 page 28)
    * Closure of audit was not completed in AARTS by the end of reporting period (9/30/2007).


Table 2: OIG Audit Reports on Department Programs and Activities
(April 1, 2007, through September 30, 2007)
Section 5(a)(6) of the IG Act as amended, requires a listing of each report completed by OIG during the reporting period.
Report                             Report Title                        Date         Questioned     Unsupported No. of
Number                                                                 Issued          Costs *      Costs          Recomm-
                                                                                                                       endations
AUDIT REPORTS
FSA
A02H0005            EDUTEC’s Administration of the Federal           9/27/07               $83,000                            5
                    Pell Grant Program

A06H0009            Career Point Institute’s Administration of       9/28/07                               $4,178             2
                    Title IV Student Financial Assistance
                    Programs
A06H0010            Eagle Gate College’s Administration of           9/28/07               $2,630                             6
                    Title IV Student Financial Assistance
                    Programs
A07G0012            Vatterott College-Omaha’s Compliance             8/1/07                $37,964                            7
                    with Selected Provisions of the HEA and
                    Corresponding Regulations

A09G0012            Department’s Oversight of the FAFSA              8/23/07                                                  4
                    Verification Process


A09G0035            San Diego State University’s Eligibility         5/30/07                                                None
                    Determination for Federal Pell Grants
                    Awarded to Postbaccalaureate Students
                    Enrolled in Teaching Credential Programs
A09H0013            California State University-Chico’s              8/23/07                $977                              6
                    Administration of the FWS Program




                                                                27
                                              Semiannual Report to Congress Number 55

                                                                                                    No. of
   Report                 Report Title                        Date    Questioned     Unsupported   Recomm-
   Number                                                    Issued    Costs*          Costs       endations

A11H0001    FY 2007 System Security Review of the        9/27/07                                      68
            COD System
            (OCIO also designated as action
            official)
A19G0006    Controls Over Contract Monitoring for        8/24/07                                      6
            FSA Contracts
OCFO
A02H0001    Puerto Rico Department of Education’s        9/25/07      $5,015,367 *                    2
            Use of Charter Schools Program Funds

A11F0005    Effectiveness of the Department’s            6/26/07                                      9
            Financial Management Support System
            Oracle 11i Re-Implementation
            (Report recommends Chief of
            Staff/OS direct the Investment Review
            Board Chair, CFO, and CIO to take
            recommended actions)
A17G0012    Digital Analysis of Department Purchase      6/13/07                                      2
            Card Activity
OCIO
A19G0012    Termination of EDNet Access for              5/23/07                                      4
            Separated Employees
OESE
A02G0007    Hempstead Union Free School District’s       4/10/07       $3,220        $118,040         11
            ESEA Title I, Part A Non-Salary
            Expenditures
A04G0012    Audit of Mississippi Department of           8/8/07       $3,192,395                      4
            Education’s Emergency Impact Aid
            Program Controls and Compliance
A04G0013    Audit of Mississippi Department of           9/7/07                                       5
            Education’s Immediate Aid to Restart
            School Operations Controls and
            Compliance
A05G0020    Audit of the Alabama State Department        9/27/07      $3,742,000     $837,375         5
            of Education’s and Two Selected Local
            Educational Agencies’ Compliance with
            Temporary Emergency Impact Aid
            Program Requirements
A05G0021    Audit of the Alabama State Department        8/9/07                                     None
            of Education’s and Mobile County
            Public School System’s Compliance
            with Immediate Aid to Restart School
            Operations Program Requirements




                                                    28
                                                    Semiannual Report to Congress Number 55

                                                                                                           No. of
Report Number                   Report Title                    Date Issued   Questioned    Unsupported   Recomm-
                                                                               Costs*          Costs      endations


A05G0031         Columbus City School District’s                6/20/07         $3,005        $45,153        8
                 Compliance with Financial
                 Accountability Requirements for
                 Expenditures Under Selected NCLB
                 Programs
A05G0033         Illinois State Board of Education’s            6/7/07        $16,809,020                    8
                 Compliance with the Title I, Part A,
                 Comparability of Services Requirements
A06G0009         Audit of the Temporary Emergency               9/18/07                     $10,270,000      4
                 Impact Aid for Displaced Students
                 Requirements at the Texas Education
                 Agency and Applicable Local Education
                 Agencies
A06G0010         Louisiana Department of Education’s            9/21/07                     $6,303,000       4
                 Compliance with HERA Temporary
                 Emergency Impact Aid for Displaced
                 Students Requirements
Office of Postsecondary Education (OPE)
A06G0011         Louisiana Hurricane Relief Funding             4/18/07                                       2

A19G0001         Audit of the Discretionary Grant Award         4/16/07                                       1
                 Process in the Office of Postsecondary
                 Education
Office of Secretary (OS)
A19G0009         The Department’s Management of the             4/17/07                                      19
                 EDNet Contract
                 (Report addressed to Chief of Staff/OS,
                 who is requested to ensure CIO and
                 CFO take recommended actions)
Office of Special Education and Rehabilitative Services (OSERS)
A05H0008         Indian Springs District 109’s Use of           6/22/07        $29,472                        2
                 IDEA Funds




                                                           29
                                                              Semiannual Report to Congress Number 55

     Report                                                                                                                          No. of
     Number                                  Report Title                             Date       Questioned     Unsupported         Recomm-
                                                                                     Issued      Costs             Costs            endations

ALTERNATIVE PRODUCTS
OCFO
F02H0012          National Assessment of Educational Progress (NAEP)               7/25/07                                            None
                  2008-2012 Proposal Submitted Under Request for
                  Solicitation No. ED-07-R-0007: Volume I – Alliance
                  Coordination (Pre-award Attest Service)
F02H0013          NAEP 2008-2012 Proposal Submitted Under Request                  8/3/07                                             None
                  for Solicitation No. ED-07-R-0007: Volume II –
                  Design, Analysis & Reporting
                  (Pre-award Attest Service)
F02H0014          NAEP 2008-2012 Proposal Submitted Under Request                  8/3/07                                             None
                  for Solicitation No. ED-07-R-0007: Volume III – Item
                  Development
                  (Pre-award Attest Service)
F02H0019          Education Department Utility for Communications,                 9/21/07                                            None
                  Applications, and Technology Environment
                  (EDUCATE) Proposal Submitted Under Request for
                  Solicitation No. ED-07-R-0034
                  (Pre-award Attest Service)
F02H0020          EDUCATE Request for Solicitation No. ED-07-R-0034                9/21/07                                            None
                  (Pre-award Attest Service)

F03H0011          EDUCATE Proposal Submitted under Request for                     9/24/07                                            None
                  Solicitation No. ED-07-R-0034
                  (Pre-award Attest Service)
F07H0016          NAEP Proposal                                                    8/23/07                                            None
                  (Pre-award Attest Service)
*    For purposes of this schedule, questioned costs may include other recommended recoveries. Please see footnote 3 under Table 4 for
     additional information regarding questioned and unsupported costs. All of the funds in this column for A02H0001 are other
     recommended recoveries.

DESCRIPTION OF ALTERNATIVE PRODUCTS
Interim audit memoranda are used to notify Department management or the audited entity of a serious and urgent condition or issue
identified during an on-going audit assignment when there is a strong likelihood that waiting until the audit report’s issuance would result in
the loss of an opportunity to prevent or curtail significant harm to the Department’s interest. One interim audit memorandum was issued
during the SAR 55 period. It is OIG policy to include interim audit memoranda in our product count but not individually identify them in
SAR Table 2, nor post them on the OIG Internet/Intranet website due to their pre-decisional and interim nature. Recommendations made in
these products are tracked and resolved under the subsequently issued final audit report.

Pre-award Attest Services are provided by OIG in response to requests by Department contracting or program office staff. These include
performing field pricing support or making an assessment of an offeror’s accounting system. Since the results of pre-award attest services are
used in the contract negotiation process, the contents of resulting reports are considered to be confidential. Names of bidders have been
extracted from report titles in the interest of preserving bidder privacy and confidentiality.




                                                                    30
                                                             Semiannual Report to Congress Number 55

Table 3: Other OIG Reports on Department Programs and Activities
(April 1, 2007, through September 30, 2007)
Section 5(a)(6) of the IG Act as amended, requires a listing of each report completed by OIG during the reporting
period.
Report Number                                                      Report Title                                                   Date
                                                                                                                                 Issued
FSA
I13H0001              Review of FSA’s Monitoring of Guaranty Agency Compliance with the Establishment of the                     9/7/07
                      Federal Fund and the Operating Fund 1 (Inspection Report)
OCIO
L11H0002              Information Security Risk – Keylogger Vulnerability 2 (Alert Memorandum – IT Audit                         7/2/07
                      Division 07-01 Addressed to the Senior Counselor to the Secretary/OS, and requests OS to
                      require OCIO and FSA take suggested actions)
S11H0003              FY 2007 FISMA Submission (Special Project addressed to the Chief of Staff/OS)                             9/25/07
ODS
I13H0004              Inspection of Active Congressional Earmarks in FY 2005 1 (Inspection Report)                               9/25/07
OESE
I13H0003              Inspection of the Department’s ESEA Secretarial Waiver Requirements 1(Inspection Report)                   4/5/07
L02H0011              Virgin Islands Department of Education Third Party Fiduciary Has Been Ineffective in                      9/26/07
                      Providing Fiscal Oversight and Management of Department of Funds 2(Alert Memorandum –
                      State and Local No. 07-02)
L06H0008              HERA Temporary Emergency Impact Aid 2 (Alert Memorandum – State and Local No. 07-01)                      6/18/07
OPE
L06H0012              Possible Duplication of Effort under FIE and Gaining Early Awareness and Readiness for                    9/27/07
                      Undergraduate Programs Grants 2 (Alert Memorandum – State and Local No. 07-03. OII also
                      designated as an action official. As of 9/30/2007, OPE was identified as the lead office. As of
                      10/22/2007, OII agreed to take the position as lead program office on the audit.)
Office of Safe and Drug-Free Schools (OSDFS)
S03G0015              OIG Perspective on the Unsafe School Choice Option 3 (Special Project)                                     8/2/07
Office of Special Education and Rehabilitative Services (OSERS)
A19H0001              Management Procedures Under the Randolph–Sheppard Act and Javits-Wagner-O’Day Act                         7/31/07
                      (Inspection Report)
Office of the Under Secretary (OUS)
L21H0012              Information Security Risk – Capturing of Internet Protocol Addresses 2 (Alert Memorandum                   5/3/07
                      – TDC-07-01)
DESCRIPTION OF TABLE 3 PRODUCTS
1
    I13H0001 made five non-monetary recommendations; I13H0004 made one non-monetary recommendation; and I13H0003 made two
     non-monetary recommendations
2
    L11H0002 made three non-monetary suggestions; L02H0011 made one non-monetary suggestion; L06H0008 made two non-monetary
     suggestions and one monetary suggestion questioning $799,500 in costs; L06H0012 made one non-monetary suggestion; and
     L21H0012 made one non-monetary suggestion
3
    S03G0015 made six non-monetary suggestions for the Department and Congress to consider in legislative changes

Alert memoranda are prepared when a serious condition is identified that requires immediate Department management action that is either
outside the agreed-upon objectives of an on-going audit or inspection assignment or is identified while engaged in work not related to an
on-going assignment when an audit or inspection report will not be issued. Alert memoranda are not on the OIG website and are not
publicly distributed. Alert memoranda are coded “L” in the OIG’s Audit Tracking System.




                                                                    31
                                                                Semiannual Report to Congress Number 55

Inspections are analyses, evaluations, reviews or studies of the Department’s programs. The purpose of an inspection is to provide
Department decision makers with factual and analytical information, which may include an assessment of the efficiency and effectiveness
of their operations, and vulnerabilities created by their existing policies or procedures. They are performed in accordance with the 2005
President’s Council on Integrity and Efficiency Quality Standards for Inspections appropriate to the scope of the inspection. Inspections
are coded “I” in the OIG’s Audit Tracking System.

Special projects are work that result in the issuance of a product or report that may not follow audit, inspection, or investigation standards.
Special Projects are coded “S” in the OIG’s Audit Tracking System.



 Table 4: OIG Issued Audit Reports with Questioned Costs1
 Section 5(a)(8) of the IG Act as amended, requires for each reporting period a statistical table showing the total number of
  audit reports, the total dollar value of questioned and unsupported costs, and responding management decision.
                                                                                            Questioned2         Unsupported 3
                                                                            Number              Costs               Costs
 A. For which no management decision has been made before the                  42          $978,998,573         $220,966,854
     commencement of the reporting period (as adjusted)

 B. Which were issued during the reporting period                                      14              $46,496,796           $17,577,746

            Subtotals (A + B)                                                          56            $1,025,495,369          $238,544,600

 C. For which a management decision was made during the                                 7              $14,946,880             $7,826,426
    reporting period
    (i) Dollar value of disallowed costs                                                               $14,946,880             $7,826,426

        (ii) Dollar value of costs not disallowed                                                           $0                    $0

 D. For which no management decision was made by the end of the                        49            $1,010,548,489          $230,718,174
    reporting period

 E. For which no management decision was made within six months                        35             $964,051,693           $213,140,428
    of issuance
 1
     None of the audits reported in this table were performed by the Defense Contract Audit Agency
 2
   Questioned costs are costs that are questioned because of either an alleged violation of a provision of a law, regulation, contract, grant,
 cooperative agreement, or other agreement or document governing the expenditure of funds or a finding that, at the time of the audit,
 such cost is not supported by adequate documentation or a finding that the expenditure of funds for the intended purpose is unnecessary
 or unreasonable. Other recommended recoveries are funds recommended for reasons other than questioned costs. Since the IG Act does
 not provide for this type of monetary finding, other recommended recoveries are combined with the “questioned costs” category for
 reporting in the SAR. The category is usually used for findings involving recovery of outstanding funds and/or revenue earned on
 Federal funds. The amount also includes any interest due the Department resulting from auditees’ use of funds. In addition, amounts
 reported for this category are combined with unsupported costs for reporting in the SAR.
 3
   Unsupported costs are costs that are questioned because, at the time of the audit, such costs were not supported by adequate
 documentation.




                                                                       32
                                                       Semiannual Report to Congress Number 55


Table 5: OIG Issued Audit Reports with Recommendations for Better Use of Funds*
Section 5(a)(9) of the IG Act as amended, requires for each reporting period a statistical table showing the total number of
audit reports and the total dollar value of recommendations that funds be put to better use by management.
                                                                                              Number           Dollar Value
A.             For which no management decision has been made before the                        3             $892,327,577
               commencement of the reporting period (as adjusted)
B.             Which were issued during the reporting period                                    0                         $0

                 Subtotals (A + B)                                                              3             $892,327,577

C.             For which a management decision was made during the reporting period
                (i) Dollar value of recommendations that were agreed to by
                management                                                                       0                        $0
                (ii) Dollar value of recommendations that were not agreed to by
                management                                                                       0                        $0

D.            For which no management decision has been made by the end of the                3               $892,327,577
              reporting period
E.            For which no management decision was made within six months of                  3               $892,327,577
              issuance
* None of the audits reported in this table were performed by the Defense Contract Audit Agency.


Table 6: Unresolved Reports Issued Prior to April 1, 2007
Section 5(a)(10) of the IG Act as amended, requires a listing of each report issued before the commencement of the reporting
period for which no management decisions had been made by the end of the reporting period. (Status below represents
comments provided by the Department, comments agreed to, or documents obtained from AARTS.)
      Report                             Report Title                            Date       Total Monetary        No. of
     Number                     (Prior SAR Number and Page)                     Issued         Findings      Recommendations

New Since Last Reporting Period
FSA
A06F0018        Philander Smith College’s Administration of Title IV           11/2/06        $476,167              20
                Student Financial Assistance Programs Needs
                Improvement (SAR 54, pg 29)
                Status: AARTS shows FSA Administrative Stay was
                approved on 8/2/2007. FSA informed us it is currently
                working on this audit.
A09G0026          Morton College’s Verification of Applicant                   3/26/07                                2
                  Information Submitted on the FAFSA (SAR 54, pg 29)
                  Status: FSA informed us that the audit was closed on
                  9/14/2007. Audit Liaison Officer (ALO) waiting on
                  documentation from Case Team to close the audit in
                  AARTS. This audit is not considered resolved or closed
                  until it is certified through AARTS.




                                                              33
                                                 Semiannual Report to Congress Number 55

   Report                        Report Title                            Date     Total               No. of
   Number               (Prior SAR Number and Page)                     Issued    Monetary       Recommendations
                                                                                  Finding
A09G0027    School of the Art Institute of Chicago’s Verification of   3/26/07                              2
            Applicant Information Submitted on the FAFSA (SAR
            54, pg 29)
            Status: FSA informed us that the audit was closed on
            9/14/2007. ALO waiting on documentation from Case
            Team to close the audit in AARTS. This audit is not
            considered resolved or closed until it is certified
            through AARTS.
A09G0033    East Carolina University’s Verification of Applicant       3/26/07       $1,464                 6
            Information Submitted on the FAFSA (SAR 54, pg 30)

            Status: FSA informed us that the audit was closed on
            9/13/2007. ALO waiting on documentation from Case
            Team to close the audit in AARTS. This audit is not
            considered resolved or closed until it is certified
            through AARTS.
OCFO
A07G0013    Parental Information and Resource Center Grant at The      11/16/06     $436,664            7
            Learning Exchange (SAR 54, pg 30)
            (OII also designated as an action official)
            Status: OCFO informed us that the Program
            Determination Letter (PDL) was issued on 10/9/07.
            The documentation required for resolution of this audit
            is needed in AARTS.
A09G0010    KIPP Foundation’s Administration of the FIE Grants         12/6/06       $4,391             6
            (SAR 54, pg 30)
            (OII also designated as an action official)
            Status: OCFO informed us that it needs to review and
            analyze information.
A17G0003    Financial Statement Audits FY 2006 and FY 2005             11/15/06                         5
            (SAR 54, pg 30) (FSA also designated as an action
            official)
            Status: No comments were provided to OIG.
OESE
A02F0023    Virgin Islands Department of Education Administration      1/30/07                          2
            of the Learning Point Associates Contract (SAR 54, pg
            31)
            Status: OESE informed us that the PDL was issued on
            7/10/2007; however, OIG had a substantial
            disagreement with the PDL.
A02G0002    Audit of New York State Education Department’s             11/3/06    $215,832,254          8
            Reading First Program (SAR 54, pg 31)
            Status: AARTS shows that OESE administrative stay
            was approved on 9/24/2007.




                                                       34
                                                Semiannual Report to Congress Number 55

   Report                        Report Title                           Date       Total            No. of
   Number               (Prior SAR Number and Page)                    Issued     Monetary     Recommendations
                                                                                  Findings
A03F0022    RMC Research Corporation’s Administration of the           3/7/07                         3
            Reading First Program Contracts (SAR 54, pg 31)
            (OCFO also designated as an action official)
            Status: AARTS shows OESE administrative stay was
            approved on 9/24/2007.
A03G0006    The Department’s Administration of Selected Aspects       2/22/07                         3
            of the Reading First Program (SAR 54, pg 31)
            (OCFO also designated as an action official)
            Status: OESE informed us that this is an internal audit
            with ongoing corrective action.
A04G0003    Review of the Georgia Reading First Program (SAR          1/18/07                         1
            54, pg 31)
            Status: Documentation that was provided by OCFO-
            Post Audit Group (PAG) and AARTS shows OESE
            administrative stay was approved on 9/28/2007.
A05G0011    Wisconsin Department of Public Instruction’s Reading      10/20/06   $5,844,522           2
            First Program (SAR 54, pg 31)
            Status: Documentation that was provided by OCFO-
            PAG and in AARTS shows OESE administrative stay
            was approved on 9/28/2007.
A05G0015    Ohio Department of Education’s Title I, Part A,           11/13/06    $315,012            6
            Comparability of Services Requirement (SAR 54, pg
            31)
            Status: OESE informed us that the PDL was issued on
            9/27/2007. The required documentation for resolution
            of this audit is needed in AARTS.
A05G0034    Indiana Schools’ Implementation of Schoolwide Plans       3/15/07                         5
            Under the NCLB Act of 2001 (SAR 54, pg 31)
            Status: OESE informed us that the PDL was issued on
            9/20/2007. The required documentation for resolution
            of this audit is needed in AARTS.
A09F0024    California Department of Education’s Migrant              12/1/06        *                6
            Education Program (SAR 54, pg 31)
            Status: Documentation provided by OCFO-PAG and in
            AARTS shows OESE extension of administrative stay
            was approved on 9/24/2007.
A09G0020    Arizona Department of Education’s Oversight of the        3/26/07    $10,185,915         11
            ESEA, Title I, Part A Comparability of Services
            Requirement (SAR 54, pg 31)
            Status: OESE informed us that the PDL was issued on
            10/3/2007. The required documentation for resolution
            of this audit is needed in AARTS.




                                                      35
                                                       Semiannual Report to Congress Number 55

   Report                            Report Title                                  Date       Total          No. of
   Number                   (Prior SAR Number and Page)                           Issued     Monetary       Recomm-
                                                                                             Finding        endations
OSERS
A06F0019      Results of five audits of the IDEA, Part B requirements at           3/28/07   $328,000,000       6
              schools under the supervision of the Department of
              Interior’s Bureau of Indian Affairs (SAR 54, pg 32)
              (Report was addressed to the Bureau of Indian Education,
              Department of the Interior)
              Status: OSERS informed us that it initiated closure on the
              audit. The required documentation for resolution of this
              audit is needed in AARTS.
Reported in Previous SARs
FSA
A04B0015      Review of Cash Management and Student Financial                      9/26/02    $997,313          7
              Assistance Refund Procedures at Bennett College
              (OPE designated as collateral action office for this report)
              (SAR 45, pg 16)
              Status: FSA informed us that the audit was resolved by
              FSA on 8/22/2003, which is reflected in AARTS. The
              required audit clearance document contains errors that
              have never been corrected after it was created in AARTS on
              3/14/2003.
A04B0019      Advanced Career Training Institute’s Administration of the           9/25/03    $7,472,583        14
              Title IV HEA Programs (SAR 47, pg 13)
              Status: No comments were provided to OIG. FSA
              previously informed us that the audit should be closed by
              9/30/2007 in AARTS.
A04E0001      Review of Student Enrollment and Professional Judgment               9/23/04    $2,458,347            7
              Actions at Tennessee Technology Center at Morristown,
              TN (SAR 49, pg 14)
              Status: FSA informed us that it is waiting on policy
              decision to address and resolve this audit.
A05E0013      Audit of the Administration of the Student Financial                 2/25/05    $1,645,160        3
              Assistance Programs at the Ivy Tech State College Campus
              in Gary, Indiana, During the Period July 1, 2002, through
              June 30, 2003 (SAR 50, pg 21)
              Status: FSA informed us that the audit was closed on
              1/22/2007. Audit will be closed by 3/31/2008 in AARTS.
              This audit is not considered resolved or closed until it is
              certified through AARTS.
A0670005      Professional Judgment at Yale University (SAR 36, pg 18)             3/13/98     $5,469           3
              Status: FSA informed us that it is waiting on policy
              decision to address and resolve this finding in the final
              audit determination letter.
A0670009      Professional Judgment at Univ. of Colorado (SAR 37, pg 17)           7/17/98     $15,082          4
              Status: FSA informed us that it is waiting on policy decision to
              address and resolve this finding in the final audit determination
              letter.




                                                              36
                                               Semiannual Report to Congress Number 55

   Report                          Report Title                            Date         Total        No. of
   Number                 (Prior SAR Number and Page)                     Issued      Monetary      Recomm-
                                                                                      Findings      endations
A06D0018    Audit of Saint Louis University’s Use of Professional        2/10/05     $1,458,584        6
            Judgment for the Two-Year Period from July 2000
            Through June 2002 (SAR 50, pg 21)
            Status: FSA informed us that it is waiting on policy
            decision to address and resolve this finding in the final
            audit determination letter.
A0723545    State of Missouri, Single Audit Two Years Ended June 30,      4/1/93     $1,048,768        18
            1991
            Status: FSA is currently researching options to resolve
            this issue.
A0733123    State of Missouri, Single Audit Year Ended June 30, 1992      3/7/94      $187,530         18

             Status: FSA is currently researching options to
            resolve this issue.
A07F0017    Special Allowance Payments to Nelnet for Loans Funded        9/29/06    $278,000,000        2
            by Tax-Exempt Obligations (see note 1) (SAR 53, pg 24)
            Status: No comments were provided to OIG. FSA
            previously informed us that based on the settlement
            agreement between the Department and Nelnet, this audit
            should be considered closed. Audit will be removed from
            the overdue listing after all actions are completed in
            AARTS.
A09D0024    American River College’s Compliance with Student             12/1/04     $3,024,665        3
            Eligibility Requirements for Title IV Student Aid Programs
            (SAR 50, pg 21)
            Status: FSA informed us that the audit is currently being
            reviewed by its San Francisco Case Team.
A09F0008    University of Phoenix’s Processing of Return of Federal      12/22/05    (see note 2)      3
            Student Aid for HEA, Title IV Programs (SAR 51, pg 26)
            Status: FSA informed us that the audit is currently being
            reviewed by its San Francisco Case Team.
N0690010    Inspection of Parks College's Compliance with Student         2/9/00      $169,390         1
            Financial Assistance Requirements (SAR 40, pg 18)
            Status: FSA informed us that the Dallas Case Team denied
            school’s recertification on December 31, 1999. School
            closed February 5, 2000. FSA ALO did search of AARTS
            and Audit Control Number is not in AARTS. The required
            documents for resolution of this audit are needed in
            AARTS.




                                                     37
                                                 Semiannual Report to Congress Number 55

   Report                            Report Title                                Date      Total        No. of
   Number                   (Prior SAR Number and Page)                         Issued    Monetary     Recomm-
                                                                                          Findings     endations
OCFO
A02E0008    Department Funds Disbursed for New York City Department of         6/14/05    $6,756,824      8
            Education Telecommunication Services (SAR 51, pg 26)
            Status: OCFO informed us that the audit is resolved. The
            required documentation for resolution of this audit is needed in
            AARTS.
A03F0010    The Education Leaders Council’s Drawdown and Expenditure           1/31/06    $760,570        12
            of Federal Funds (SAR 52, pg 8) (OII also designated as action
            official)
            Status: All resolution activities have been suspended until
            further notice.
A05D0041    University of Illinois at Chicago’s Upward Bound Project           12/20/04   $223,057        8
            (SAR 50, pg 22) (OPE also designated as action official )
            Status: OCFO informed us that it needs to review and analyze
            recent information.
A05E0002    Audit of the University of Illinois at Chicago’s Student Support   12/15/04   $260,050        6
            Services Program (SAR 50, pg 22) (OPE also designated as
            action official)
            Status: OCFO informed us that it needs to review and analyze
            recent information.
A05E0018    University of Illinois at Chicago’s Upward Bound Math and          12/17/04   $274,493        7
            Science Project (SAR 50, pg 22) (OPE also designated as
            action official)
            Status: OCFO informed us that it needs to review and analyze
            recent information.
A07D0002    Audit of the Talent Search Program at Case Western Reserve         7/11/03    $212,428        5
            University (SAR 47, pg 14)

            Status: OCFO informed us that it is continuing to work with
            OPE to resolve the monetary findings in the audit report.
A09F0010    Pittsburg Pre-School and Community Council, Inc.’s Use of          3/17/06     $910,217       21
            Early Reading First and Migrant Education Even Start Grant
            Funds (SAR 52, pg 9) (OESE also designated as action
            official)
            Status: OCFO informed us that it needs to review and analyze
            recent information.
A09F0020    Sheldon Jackson College’s Administration of Fund for the           2/24/06                    2
            Improvement of Postsecondary Education Grants (SAR 52, pg
            11) (OPE also designated as action official)
            Status: OCFO informed us that it needs to review and analyze
            recent information.




                                                       38
                                             Semiannual Report to Congress Number 55

    Report                            Report Title                            Date       Total        No. of
    Number                   (Prior SAR Number and Page)                     Issued     Monetary     Recomm-
                                                                                        Findings     endations
OESE
A02F0005     New Haven School District’s Administration of Title I, Part A   4/11/06   $3,780,000       4
             Summer and After School Programs (SAR 53, pg 25)
             Status: No comments were provided. OESE previously
             informed us that the audit is pending resolution. Program
             reviewing voluminous work papers and rebuttals submitted by
             Connecticut.
A04F0011     Audit of the Georgia Department of Education’s Migrant          1/12/06                    7
             Education Program (SAR 52, pg 4)
             Status: AARTS shows OESE administrative stay was approved
             on 9/24/2007.
A05C0012     Audit of East Cleveland City Schools' Administration of the     9/18/02    $349,637        9
             21st Century Community Learning Centers Grant at Kirk
             Middle School for the period June 1, 1998, through December
             31, 2001 (SAR 45, pg 18)
             Status: No comments were provided. OESE previously
             informed us that the audit is pending a Departmental review.
A06E0008     Audit of the Title I Funds Administered by the Orleans Parish   2/16/05   $73,936,273      7
             School Board for the Period July1, 2001, through December 31,
             2003 (SAR 50, pg 23)
             Status: Documentation provided by OCFO-PAG and AARTS
             shows OESE administrative stay was approved on 9/28/2007.

A06F0013     Oklahoma State Department of Education’s Migrant Education      3/21/06    $509,000        3
             Program (SAR 52, pg 4)

             Status: Documentation provided by OCFO-PAG and in
             AARTS shows OESE administrative stay was approved on
             9/24/2007.
A06F0016     Arkansas Department of Education’s Migrant Education            8/22/06    $877,000        2
             Program (SAR 53, pg 25)

             Status: AARTS shows OESE extension of administrative stay
             was approved on 5/24/2007.
OPE
A07B0011     Audit of Valencia Community College’s Gaining Early             5/8/03    $1,822,864       5
             Awareness and Readiness for Undergraduate Programs
             Matching Requirement (SAR 47, pg 15)
             Status: OPE informed us that it continues to work on this
             audit.
OSERS
A02B0014     Audit of the Puerto Rico Vocational Rehabilitation              6/26/02   $15,800,000      5
             Administration (SAR 45, pg 18)
             Status: OSERS agrees that the audit is open and continues to
             work diligently towards completion.




                                                  39
                                                                  Semiannual Report to Congress Number 55

     Report                                            Report Title                                        Date            Total        No. of
     Number                                   (Prior SAR Number and Page)                                 Issued          Monetary     Recomm-
                                                                                                                          Findings     endations
A02E0020                 The Virgin Islands Department of Health’s Administration of                      9/28/05                           17
                         the Infants and Toddlers Program (see note 3) (SAR 51, pg
                         28)
                         Status: OSERS agrees that the audit is open and continues to
                         work diligently towards completion.

                         * We identified significant numbers of ineligible children in this report, but
                         did not project estimated questioned costs. We recommended that more
                         thorough reviews be conducted to determine the total numbers of ineligible
                         children and the return of funds expended for the ineligible children found.
                Note 1 - Audit Report A07F0017 contained a one-time better use of funds (BUF) of
                         $882,000,000
                Note 2 - Audit Report A09F0008 identified a one-time BUF of $10,000,000

                Note 3 - We identified $327,577 in one-time BUF in audit A02E0020




Table 7: Statistical Profile - FY 2007
                                                                                    Six-Month Period        Six-Month           FY 2007
                                                                                    Ending 3/31/2007      Period Ending          Total
                                                                                                            9/30/2007
OIG Audit Reports Issued                                                                    34                  26                 60
Questioned Costs                                                                       $447,259,268        $28,919,050        $476,178,318
Unsupported Costs                                                                      $113,837,121        $17,577,746        $131,414,867
Recommendations for Better Use of Funds                                                      $0                 $0                 $0
Other OIG Products Issued                                                                   12                  19                 31
(2 Alert Memoranda, 2 Attestation Reports, 1 Audit Closeout
Letter, 1 Inspection, 1 Interim Audit Memorandum, 4 Management
Information Reports, 1 Special Project)
OIG Audit Reports Resolved By Program Managers                                                44
                                                                                                               24                   68
Questioned Costs Sustained                                                               $9,912,714        $7,120,454          $17,033,168
Unsupported Costs Sustained                                                             $27,055,127        $7,826,426          $34,881,553
Additional Disallowances Identified by Program Managers                                 $14,314,236         $32,665            $14,346,901
Management Commitment to the Better Use of Funds                                       $230,721,199            $0             $230,721,199
Investigative Case Activity
Cases Opened                                                                                  87               71                    1571
Cases Closed                                                                                  71               66                    137
Cases Active at the End of the Reporting Period                                              382              380                    380




            1
                One case previously listed as opened during SAR 54 was subsequently closed



                                                                         40
                                                          Semiannual Report to Congress Number 55

                                                                         Six-Month Period     Six-Month          FY 2007
                                                                         Ending 3/31/2007    Period Ending        Total
                                                                                               9/30/2007
Prosecutorial Decisions                                                          191              107              3732
   - Accepted                                                                     92               57              1973
   - Denied                                                                       99               50              1764
Investigative Results
Indictments/Informations                                                          57              50               1115
Convictions/Pleas                                                                59               48               1116
Fines Ordered                                                                 $12,600            $58,044          $71,2367
Restitution Payments Ordered                                               $3,373,295.95      $7,216,107.51   $10,611,841.468
Civil Settlements/Judgments (number)                                             6                  9               199
Civil Settlements/Judgments (amount)                                         $482,452        $19,134,228.36   $19,656,636.3610
Recoveries                                                                    $91,324.50        $414,946       $526,907.9811
Forfeitures/Seizures                                                               0               0                 0
Savings                                                                        $246,620.69      $9,050         $929,654.6912




             2
               Includes 75 cases that were not previously reported in SAR 54
             3
               Includes 48 cases that were not previously included in SAR 54
             4
               Includes 27 cases that were not previously included in SAR 54
             5
               Includes 4 cases that were not previously included in SAR 54
             6
               Includes 4 cases that were not previously included in SAR 54
             7
               Includes $592 not previously included in SAR 54
             8
               Includes $22,438 not previously included in SAR 54
             9
               Includes 4 cases not previously included in SAR 54
             10
                Includes $39,956 not previously included in SAR 54
             11
                Includes $20,637.48 not previously included in SAR 54
             12
                Includes $673,984 not previously included in SAR 54



                                                                41
U.S. Department of Education
Margaret Spellings
Secretary

Office of Inspector General
John P. Higgins, Jr.
Inspector General

Mary Mitchelson
Counsel to the Inspector General

November 2007

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While permission
to reprint this publication is not necessary, the citation should be: U.S. Department of Education, Office of Inspec-
tor General, Inspector General’s Semiannual Report to Congress, No. 55.

To order copies of this report:

Write to: ED Pubs, Education Publications Center, U.S. Department of Education, P.O. Box 1398, Jessup, MD
20794-1398; or

Fax your request to 301-470-1244; or

E-mail your request to: edpubs@inet.ed.gov; or

Call in your request toll-free: 1-877- 433-7827 (1-877-4-ED-PUBS). If 877 service is not yet available in your area,
call 1-800-872-5327 (1-800-USA-LEARN). Those who use a telecommunications device for the deaf (TDD) or a
teletypewriter (TTY), should call 1-877-576-7734; or

Order online at: www.edpubs.org/.
On request, this publication is available in alternative formats, such as Braille, large print or computer diskette. For
more information, please contact the Department’s Alternate Format Center at 202-260-0852 or 202-260-0818.

Please Note: The Inspector General’s Semiannual Report to Congress, No. 55 and reports discussed herein are available
on the Department’s Web site at: http://www.ed.gov/offices/OIG.
     Anyone knowing of fraud, waste or abuse involving
U.S. Department of Education funds or programs should call,
       write or e-mail the Office of Inspector General.
                                Call toll-free:
                        The Inspector General Hotline
                     1-800-MISUSED (1-800-647-8733)

                                  Or write:
                          Inspector General Hotline
                        U.S. Department of Education
                         Office of Inspector General
                              550 12th St. S.W.
                           Washington, DC 20024

                                  Or e-mail:
                              oig.hotline@ed.gov

         Your report may be made anonymously or in confidence.

                 For information on identity theft prevention
                       for students and schools, visit the
            Office of Inspector General Identity Theft Web site at:
                              www.ed.gov/misused




   The Department of Education’s mission is to promote student achievement
   and preparation for global competitiveness by fostering educational excel-
                        lence and ensuring equal access.

                                  www.ed.gov
